<html>
<title> - YOUTH VIOLENCE PREVENTION PROGRAM</title>
<body><pre>[Senate Hearing 106-372]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-372


 
                   YOUTH VIOLENCE PREVENTION PROGRAM

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate
                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE
 61-421 cc                   WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                           ISBN 0-16-060234-3


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Labor, Health and Human Services, and Education, and 
                            Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
JON KYL, Arizona                     DIANNE FEINSTEIN, California
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)

                           Professional Staff

                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                               Aura Dunn
                        Ellen Murray (Minority)

                         Administrative Support

                             Kevin Johnson
                       Carole Geagley (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
    Prepared statement...........................................     3
Opening statement of Senator Robert C. Byrd......................     4
Addressing youth violence in schools.............................     7
Increase interpersonal contact through smaller classes...........     7
Poll shows students want smaller schools/classes.................     7
Increase family support systems and family involvement...........     7
Creating smaller schools from large schools......................     7
Importance of close interaction in schools.......................     8
Importance of parental involvement...............................     8
Involve young people in finding solutions........................     8
Symposium for youth involvement..................................     8
Addressing youth violence in nontraditional ways.................     8
Ed and DOJ guide to school violence prevention...................     9
Opening statement of Senator Tom Harkin..........................     9
    Prepared statement...........................................    10
Opening statement of Senator Patty Murray........................    10
Statement of Alexis M. Herman, Secretary of Labor, Office of the 
  Secretary, Department of labor.................................    12
    Prepared statement...........................................    14
Coordinated Federal strategy.....................................    15
Department of Labor youth strategy...............................    16
Department of Labor youth programs and initiatives...............    17
Impact of Department of Labor youth programs on youth violence...    19
New activities to help at-risk youth and to address youth 
  violence.......................................................    19
Statement of Donna E. Shalala, Secretary of Health and Human 
  Services, Office of the Secretary, Department of Health and 
  Human Services.................................................    21
    Prepared statement...........................................    23
The scope of the youth violence problem..........................    24
The administration's commitment to prevent youth violence........    25
What does a public health approach have to offer?................    26
Partners in violence prevention..................................    27
Statement of Richard W. Riley, Secretary of Education, Office of 
  the Secretary, Department of Education.........................    28
Nation's schools remain basically safe...........................    28
Media coverage of youth violence in schools......................    29
Need to overcome sense of disconnection in youth.................    29
Youth concerns as evidenced in the shell poll....................    29
Need to end the sense of youth disconnection.....................    29
Education programs extending contact and time for youth..........    29
21st century learning centers....................................    30
Safe and drug-free schools program...............................    30
Necessary role of funding in supporting solutions................    30
Congressional leadership in finding solutions....................    30
Prepared statement of Richard W. Riley...........................    30
Lessons learned..................................................    31
Violence prevention activities...................................    32
Future plans.....................................................    33
Subcommittee's draft youth violence prevention initiative........    34
Additional examples of Department of Education initiatives.......
Statement of Eric Holder, Deputy Attorney General, Office of the 
  Deptuty Attorney General, Department of Justice................    36
Youth violence...................................................    37
Coordinating Council on Juvenile Justice and Delinquency.........    37
Strategy for juvenile offenders..................................    38
Prepared statement of Eric Holder................................    39
Trends in juvenile arrest rates..................................    39
The Office of Juvenile Justice and Delinquency Prevention........    40
Coordinating Council on Juvenile Justice and Delinquency 
  Prevention.....................................................    40
Research.........................................................    41
The comprehensive strategy for serious, violent, and chronic 
  juvenile offenders.............................................    43
Prevention programs..............................................    43
Prevention--child protection programs............................    44
Prevention--Programs providing positive opportunities for youth..    45
Intervention.....................................................    47
Coordination and information sharing.............................    48
Youth violence initiative........................................    48
Creation of the Office of Attorney General.......................    49
Youth Violence Council...........................................    50


                   YOUTH VIOLENCE PREVENTION PROGRAM

                              ----------                              


                      TUESDAY, SEPTEMBER 14, 1999

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Harkin, Byrd, and Murray.


               opening statement of senator arlen specter


    Senator Specter. Good morning, ladies and gentlemen. The 
Subcommittee on Labor, Health and Human Services, and Education 
will now proceed. That is the longstanding title of this 
subcommittee, but it is an unusual occurrence when we have all 
three Departments--Labor, Health and Human Services, and 
Education--together with the distinguished Secretaries who are 
present today to testify, along with the distinguished Deputy 
Attorney General, because the subject matter of today's 
testimony comprehends in great depth the three Departments 
funded by this subcommittee, or the recommendations initially 
made by this subcommittee, and also the Department of Justice.
    Today we are going to be looking into a Youth Violence 
Prevention Program, which is especially timely now, after the 
incidents at Littleton, but this has been a subject which has 
been timely for quite a while. This problem of juvenile 
violence was characterized by the Surgeon General in the 1980's 
as a national health problem. And that is the direction of this 
prevention initiative.
    We are seeking to reallocate very substantial funding 
within the jurisdiction of this subcommittee to be directed to 
prevent youth violence. This matter has been worked very 
coordinately with the three Departments and the Department of 
Justice, and with the President's domestic counselor. So I 
think that we are all on the same wavelength in what we are 
talking about. But we will have our work cut out for us in 
terms of finding adequate funding and getting legislative 
agreement on the objectives which we are seeking here.
    We are not looking for any quick fixes. We are not pointing 
the finger at the movies, television or video games, but there 
is funding within this allocation for the Surgeon General to 
conduct an exhaustive summary of the existing studies and to 
undertake additional studies, because some have questioned the 
methodology, where there is a causal factor attributed to 
movies or television. So we want to get as much accurate 
information on that as possible, wherever the facts lead us, to 
work in a coordinated way with the industries involved, 
considering the obvious, the very sensitive first amendment 
issues, which are involved there.
    We have had a series of meetings--three long sessions--
about 1\1/2\ hours in length each, where we have called 
together the experts in each of the three Departments. Two of 
our meetings were graced with the attendance of the Deputy 
Attorney General, where we went through nuts and bolts. After 
each meeting, the practitioners, technicians and experts went 
back and worked in preparation for the next meeting, and then 
the three meeting. Staff has put together, what I would submit 
and others are going to have to judge, an 11-page summary for 
our markup, which lays out the program in some comprehensive 
detail. Which of course I will not go into now.
    But we are dealing here with a coordination of education 
matters on character education, elementary school counselors, 
literacy programs, after-school programs. We are dealing with 
health issues on drug-free schools, alcoholism, mental health 
services. We are dealing with labor issues, on job training. We 
are dealing with Department of Justice issues, on the youth 
offender grants. That is only a very, very brief summary.
    Just a word or two about where we stand in the budget 
process. It has been very, very difficult in the past 2 years 
to have a bill on Labor, Health and Human Services, and 
Education. We are facing very severe constraints this year 
again.
    It is my view, and the view of the distinguished ranking 
member, and I think the subcommittee generally and beyond that, 
where we have to have at least $92 billion just to stay even. 
That does not even account for inflation advances. The 
allocation is $80.4 billion, which is totally insufficient. The 
question is: What do we do?
    The ideas have been advanced for some extensive forward 
funding. That is not new to this subcommittee. And that is not 
new to the Congress.
    In my comments, I have been frank to say that there is 
smoke and mirrors here. I did not invent them. I have not even 
been a very extensive practitioner of them. But that is the way 
the funding works, to stay within caps and to stay within 
accounting techniques and practices. I am not sure exactly how 
we are going to work it out this year, but we are determined to 
have adequate funding in Health and Education and the Labor 
Departments on all of those very, very important issues.
    I think it is just worth a very brief comment on today's 
story which appears in the Washington Post, which has a 
headline about a 13-month fiscal year. I am actively quoted in 
this story on the two statements which are in quotations. The 
first says: We all know we engage in a lot of smoke and 
mirrors, but we have to fund Education, NIH, worker safety and 
other programs. It is a question of how we do it. That is in 
quotes and that is accurate.
    I am also quoted accurately as saying that: ``If the money 
can be pushed off to expenditures in 2001, that would give us 
the latitude of using that year's surplus without breaking the 
caps.'' That is also accurate.
    Underneath this unflattering but accurate picture of me, 
however, it says: Arlen Specter believes the 13-month fiscal 
year would ensure adequate funding for Labor, Education, Health 
programs and social programs. Well, I did not say that. 
Frankly, candidly and openly, I have never even heard talk 
until this morning's Post about a 13-month budget.
    But I do stand by the statements which I made in the 
earlier quotes here about smoke and mirrors. If we can do it 
without smoke and mirrors, I would be glad to sign up. I am 
determined to see that these three Departments are adequately 
funded. I am just absolutely, positively determined.
    I believe that this initiative will help us get the 
funding, because people will realize the importance of it. Much 
of my professional life was as a prosecutor, as a district 
attorney. You do not need leadership in Congress to be tough on 
criminals. That goes naturally with political office holding. I 
wrote the Armed Career Criminal bill and tough sentencing and 
the death penalty and the rest of it.
    But I do believe that when you deal with juveniles, you 
have to deal with the web of difficulties to at-risk youth. 
When we see the violence and shootings, the enormous problem in 
this country, it is my conclusion that categorizing it as a 
national health problem is exactly the way to go. These are the 
three Departments, in conjunction with the Department of 
Justice, to do it.

                           prepared statement

    I have talked a little long, but I wanted to make a couple 
of points here. We are honored in the subcommittee to have with 
us the distinguished ranking member, ex-chairman of 
appropriations, ex-President Pro Tempore, Ex-Majority Leader, 
ex almost everything of importance, and still very, very 
important, and will probably have all those titles again in the 
future, Senator Byrd.
    My formal statement will be made part of the record.
    [The statement follows:]
              Prepared Statement of Senator Arlen Specter
    Good morning. Today the Subcommittee on Labor, Health and Human 
Services, and Education will discuss the troubling issue of youth 
violence and how it can be prevented. To put this issue in perspective, 
homicide is the third leading cause of death for young Americans 
between the ages of 10 and 14. Our nation's adolescent homicide rate is 
8 to 9 times higher than the rest of the world. An estimated 3 million 
crimes are committed each year in or near America's 85,000 public 
schools. A recent survey shows that 18.3 percent of high school 
students carry a weapon to school.
    Clearly, youth violence is a public health crisis, demanding a 
comprehensive, coordinated national response. Last Friday, I unveiled a 
youth violence prevention initiative that Senator Harkin and I plan to 
include in the fiscal year 2000 Labor-HHS-Education appropriations 
bill. This $850.8 million initiative calls for $330.2 million in new 
funding to enhance existing program dollars of $520.6 million. These 
funds, together with research dollars at the National Institutes of 
Health, will provide a means to combat youth violence through 
prevention, education, and treatment strategies.
    Among other things, this initiative includes:
  --$10 million to establish centers at academic institutions around 
        the country to set the research agenda on risk and prevention 
        factors for violent behavior
  --$80 million for mental health services
  --$20 million for counselors in our nation's schools
  --$100 million to promote safe environments for students
  --$60 million to recruit, hire, and train school safety coordinators
  --$400 million for after-school programs
  --$80 million to train teachers to detect and manage signs of 
        destructive behavior
  --$76 million to expand youth offender and neglected and delinquent 
        programs
    I am pleased that Secretary Herman, Secretary Shalala, Secretary 
Riley, and Deputy Attorney General Holder have joined us here today to 
discuss this important issue. Their presence is a recognition that 
youth violence is a national crisis, requiring a multi-pronged, 
coordinated effort.
    To ensure that we have sufficient time for questions and answers, I 
ask that each witness limit their opening remarks. Your statements will 
be included in their entirety at the appropriate place in the record.

              opening statement of Senator Robert C. Byrd

    Senator Byrd. Thank you, Mr. Chairman. I compliment you on 
conducting this hearing. I also compliment you on assembling 
the very distinguished panel of witnesses here today. I will be 
very brief.
    I thank you for giving me this opportunity to participate. 
I agree that you have a very tough job ahead of you, dealing 
with the budget. I think it was in the year 46 B.C. that there 
was a 15-month calendar. So perhaps 13 months will not be 
entirely out of the ordinary.
    However, you can be assured that Senator Stevens and I--he 
as chairman and I as ranking member--will do all we can to help 
you. You do need additional funds. I think we ought to break 
the caps, because we have to be realistic. But, one way or 
another, I think we are going to find the money to enable you 
and the subcommittee to deal with the important problems and 
issues that face us.
    Thank you for holding this hearing on the fiscal year 2000 
Youth Violence Initiative, to be included in the subcommittee's 
Labor, Health and Human Services, Education, and Related 
Agencies mark for fiscal year 2000. I extend my appreciation to 
Chairman Specter and to the subcommittee for all of the hard 
work and commitment in making the Youth Violence Initiative an 
integral part of this year's bill.
    Let me thank those panelists who are here today. They are 
very busy people. One wonders how they are able to budget the 
time that is in the limited 24-hour day to appear before 
various and sundry subcommittees and to respond to all of the 
demands that are made upon them by members of Congress and by 
the administration itself and by our common constituencies.
    Last month, at West Virginia University, I convened a day-
long symposium on school safety, entitled ``Building Safe 
Schools and Healthy Communities: The West Virginia Response.'' 
West Virginia State Police troopers, parents, students, family 
resource providers, judges, counselors, church community 
leaders, and other men and women with a variety of backgrounds, 
examined strategies to reduce youth violence. Keeping our 
Nation's schools safe is an effort that requires cooperation 
and collaboration. No viewpoint can be summarily dismissed as 
we search for ways to protect our Nation's children.
    With that in mind, symposium participants sought to 
strengthen the collaboration among citizens, elected officials, 
community, religious and civic leaders in identifying factors 
that place young people at risk of committing violent acts, and 
to then mobilize these partnerships to bolster prevention and 
intervention efforts.
    Mr. Chairman, the subcommittee work seems to go hand in 
hand with the West Virginia symposium efforts. One of the 
noteworthy ideas shared by participants during the West 
Virginia symposium included the notion of expanding after-
school programs to all children, a notion that we discussed 
here at some length. I am pleased to see that the subcommittee 
has endorsed this important concept of providing children with 
fulfilling, wholesome activities, not just between the hours of 
8 a.m. and 3 p.m., but after the school bell rings.
    In today's two-parent working world, it is increasingly 
important to provide these opportunities. And expanding after-
school initiatives, such as the 21st Century Community Learning 
Centers Program, is an important step in this direction. 
Furthermore, I am encouraged by the attention that the 
subcommittee has devoted to bolstering parental involvement, 
particularly in the early years of a child's life, and to the 
training of teachers on how to detect and manage and monitor 
the warning signs of potentially destructive behavior in the 
classroom.
    The importance of connectivity among families, teachers and 
students, and the need to foster healthy relationships cannot 
be understated. These connections are integral to building safe 
schools and communities.
    Often a child may feel that he is just a faceless number, 
an automaton, moving through a school. But by engaging students 
both inside and out of the classroom, and by taking a true 
interest in their lives, both socially and academically, 
teachers and parents will lead the way in helping to curb youth 
violence in our country.
    It is absolutely critical that collaborations between home 
and school and community be promoted to bring about lasting 
results in preempting youth violence. Efforts at the national, 
State and local levels must be designed so that all members of 
the team work seamlessly and cooperatively to meet children's 
needs and to alleviate more senseless schoolyard tragedies.
    The situation today, of course, is much unlike what it was 
when I was attending school in a two-room schoolhouse in 
southern West Virginia. Boys carried pocketknives, but they did 
not settle their disputes with those knives. My wife and I are 
grateful that we have reared our two daughters and helped to 
rear our grandchildren in an atmosphere that is much different 
from that in which she, my wife, and I grew up.
    These members of the panel have to deal with those 
problems. They too, I am sure, can look backward and see how 
things were so different back then. Things were a lot better.
    I thank Secretary Riley and Secretary Herman and Secretary 
Shalala and Deputy Attorney General Eric Holder for your time 
and consideration and efforts, your talents and your energies 
and your vision. I thank you for helping the subcommittee.
    Now, Mr. Chairman, I have a couple of questions that I 
would like the panel to address. At the symposium in West 
Virginia, participants seemed to agree that engaging children 
is very important. I would like to know what steps the panel 
believes can be taken to assist in that effort. Are there 
things that we could be doing to better encourage parents to 
become involved with their child's education? Are there ways to 
get more children involved in their schools and communities?
    Many people believe that smaller schools--I am getting into 
an additional question now--many people believe, as do I 
believe, that smaller schools are part of the answer to giving 
students a sense of belonging. You just heard me say that I 
attended a two-room school in Mercer County. These give 
students a sense of belonging. They get personal attention from 
the teachers.
    We felt that the teachers knew us and loved us and wanted 
us to succeed. We strove to excel to please the teachers, of 
course, and also I strove to please my foster father. I knew 
that he would want to see that report card at the end of the 
month. There was a special category on the report card, titled 
``deportment.'' He was always very careful to note how I had 
scored in deportment. He saw to it that I well understood that 
if I got a whipping in school, I would get one at home that 
would be worse.
    So we felt that we knew each other in the schoolroom. There 
were only 28 in my graduating class. I was valedictorian. Had 
there been 29, I might not have been valedictorian. So we had 
small classes. Teachers were not paid much in those days. They 
were highly dedicated. But we loved our teachers. We strove to 
please them. They strove to encourage each of us to excel. So I 
believe in this small school setting.
    I realize so many things are different today. But there was 
a different environment in those small schools. So I think that 
smaller schools are part of the answer. I would like to know 
what the panel thinks.
    In the Sunday edition of the Charleston, WV, Gazette Mail, 
an article noted that of the seven most recent deadly school 
shootings in the United States, five took place in schools with 
enrollments close to or more than 1,000. The average enrollment 
for the seven schools is 1,069 students. Yet, especially in 
rural areas, it is a challenge to have small schools, replete 
with quality teachers and learning equipment. Now how can that 
balance be better struck?
    Mr. Chairman, I have asked several questions, and I do not 
expect each of the panelists to attempt to respond to these 
here. I know the subcommittee does not have the time. I would 
like for these to be on the record. I would be interested, if 
you would allow me, in seeking a response from each of the 
panelists on some aspect of the set of questions that I have 
addressed.
    Senator Specter. Senator Byrd, would it be satisfactory to 
you if they would address the answers to your questions when 
they begin their regular presentations?
    Senator Byrd. Yes, indeed. I am sorry I probably will not 
be here for that purpose. I probably misunderstood your 
recognition of me at this time.
    Senator Specter. Well, if you would like to ask questions 
now, you go ahead and do so.
    Senator Byrd. Well, thanks. If I have misunderstood, please 
forgive me. I quite often make that mistake. So what is your 
suggestion?

                  addressing youth violence in schools

    Senator Specter. If you would like to ask questions, go 
ahead and do so. We will take your questions now, since you 
have other commitments.
    Senator Byrd. Well, thank you, Mr. Chairman.
    May I just get your response on the large schools/small 
schools aspect of my question?

         increase interpersonal contact through smaller classes

    Secretary Riley. Mr. Chairman, Senator, your point is well 
taken. We had a conference with the Justice Department, pulling 
in all the key security people of the large school districts in 
this country, looking at school violence, what should we do. We 
looked at metal detectors and all of the other things.
    Their answer was the most important thing they thought we 
could do was to have smaller schools and smaller classrooms, 
where the teacher knows the children, especially young 
children. If a child is struggling or having difficulty, either 
making friends or bullying or whatever, that teacher would work 
with the child. If it was a serious problem, that teacher would 
know where to refer the child to.

            poll shows students want smaller schools/classes

    We recently had a Shell poll, which was a poll of 
teenagers, high school students, and they said the same thing. 
Some 80 percent of them were positive about the future; 20 
percent were having all kind of difficulties--drugs, family 
problems, school problems. But the 80 percent, as positive as 
they were, said that they very much craved smaller schools, 
smaller classrooms, more personal contact with each other, with 
students and with teachers and principals and coaches and 
families.
    Senator Byrd. Thank you.

         increase family support systems and family involvement

    Secretary Herman. If I could just respond, Senator Byrd, as 
well, to the question of how can we better engage parents. I 
think it is so important to recognize that families generally 
today are more stressed and more stretched for time. And we 
need to do more to recognize how we can help families balance 
work and family. We need to have more support systems 
available, from child care to elder care to support systems, 
the after-school care programs, even preschool programs now, to 
help parents to have more time to become more directly engaged, 
more hands on today, with their children and with family life.
    It is a problem not only for at-risk youth today, but 
generally for family life in this country today.
    Senator Byrd. Thank you.

              creating smaller schools from large schools

    Secretary Shalala. I would make two quick points, Senator. 
First, to reinforce what my two colleagues have said. Dick 
Riley makes the point about people really wanting smaller 
schools. There is extensive experience around the country in 
taking large schools and breaking them down into smaller units. 
So it doesn't necessarily mean that we have to build a new set 
of schools that are smaller, but we can take larger schools and 
break them down into smaller units--the importance is that more 
than just the classroom teacher who interacts with those young 
people; principals as well, should not have schools so large 
that they do not know every child's name.

               importance of close interaction in schools

    I remember very well a story, which still haunts me, of a 
young man who came to me for a job, and he was illiterate. I 
asked him why he was illiterate, why he had not learned in 
school, and he told me a terrible story. When he was in the 
fourth grade--his mother was an alcoholic--he came to school 
with torn jeans and the principal sent him home to get his 
jeans fixed or to get another pair of pants. He said he did not 
have another pair of pants. His mother was completely 
disoriented. So he sewed up the pants himself, went back to 
school and the principal said he had not done a good enough 
job. So he left school.
    I said: Did not anyone notice? He said: No one noticed I 
was gone. No one noticed. We need schools in which lots of 
people notice and listen to young people.

                   importance of parental involvement

    The final point I would make is about parents' interaction 
with their young children. Head Start is an example of a model 
program which requires that the parents spend time with the 
program and work with their young people. Parents are 
integrated into that program, and often are hired as staff. It 
has become a model for parental interaction.

               involve young people in finding solutions

    The final point I would make, which I make in my testimony 
but I wanted you to hear in particular, is I think young people 
have to be seen as part of the solution. They have to be 
integrated into the strategies of the schools. They have to 
take on responsibility for themselves. Peer groups are so 
important, particularly as kids move to their preteens. If 
young people see themselves as part of our educational and our 
social and youth development strategies, they will be part of 
the solutions, rather than adults just seeing them as something 
we manage, with their parents, through a series of 
recommendations.

                    symposium for youth involvement

    Senator Byrd. I like that suggestion. And it is my plan, 
Mr. Chairman, to follow on in West Virginia with a symposium 
made up of young people, so that they will have that 
opportunity to participate.
    Mr. Holder.

            addressing youth violence in nontraditional ways

    Mr. Holder. Yes, Senator Byrd, I think you have raised some 
very good points, and I think these are points that people in 
law enforcement are beginning to recognize. That we cannot 
think of ourselves as simply law enforcers, and do things in 
the traditional way. That if we want to be really effective in 
law enforcement, we have to understand the problems that we see 
in law enforcement arise from a whole variety of places. That 
if we want to be truly effective, we have to address those 
problems in nontraditional ways.
    You now have prosecutors and agents and police officers who 
are concerned, very concerned, about the way our schools 
operate. Because we understand that if you have smaller 
classrooms, for instance, if you have good relationships 
between students and teachers, all of that can be a very 
positive thing, a very helpful thing in preventing the kinds of 
incidents that have so troubled the Nation over the past few 
months.

             Ed and DOJ guide to school violence prevention

    Smaller classes allow teachers to recognize warning signs, 
so that they identify students who are at risk and who are 
having problems. The Department of Education and the Department 
of Justice put out an early warning guide that I think, had it 
been followed, had it been looked at by people, we might have 
been able to prevent the incidents that happened in the schools 
over these past few months. A teacher who knows the students 
quite well can become a positive role model for so many of our 
youth who have many problems that they are dealing with and are 
searching for people to model themselves after.
    In law enforcement now, we have to not only do the 
traditional kinds of things that we are expected to do--
investigate cases, make good prosecutions--but we also have to 
be concerned with the social factors that tend to breed crime, 
as well.
    Senator Byrd. Mr. Chairman, I thank you for allowing me to 
interrupt this schedule here. You are so gracious, as is so 
characteristic of you, and I really appreciate your friendship 
and your scholarship. And I appreciate you as a fellow 
colleague in the Senate. I do not see any aisle separating you 
and me. And I thank Senator Harkin, as well.
    Senator Specter. Well, thank you, Senator Byrd, for those 
generous comments. We appreciate your being here. And we are 
flexible enough to allow a question or two at any time.
    Senator Byrd. Thank you.
    Senator Specter. We will get along fine with that schedule.
    Senator Byrd. I thank the panelists, again.
    Senator Specter. Thank you.
    Senator Harkin, our distinguished ranking member.

                opening statement of senator tom harkin

    Senator Harkin. Thank you very much, Mr. Chairman. Again, I 
apologize for being a little late. I had a longstanding 
engagement over in Crystal City.
    I will just ask that my statement be made a part of the 
record.
    Senator Specter. Without objection.
    Senator Harkin. Again, I want to commend you, Mr. Chairman, 
for drawing attention to the issue of school violence, for 
taking a strong leadership role in the very bipartisan way that 
you have done this. Again, I want to commend you for calling 
today's hearings and to thank you for your leadership in this 
area.

                           prepared statement

    I will just ask that the rest of my statement be made a 
part of the record.
    Senator Specter. Thank you very much, Senator Harkin.
    [The statement follows:]
                Prepared Statement of Senator Tom Harkin
    I want to commend our Chairman for drawing attention to and taking 
the leadership role in the battle against school violence. The 
bipartisan initiative he has put forward reflects a comprehensive 
prevention-focused response to this major problem. I also want to 
commend him for calling today's hearing so that we may discuss with out 
skillful and dedicated Secretaries of Education, Health, and Labor, and 
the Deputy Attorney General of the Department of Justice how we can 
work together to achieve our common goals.
    It is truly disturbing that a nation as rich as ours has an 
adolescent homicide rate 8 to 9 times higher than the rest of the 
world. That is a national disgrace.
    Violence in our schools is both unwarranted and intolerable. We all 
agree now that this is a multifaceted problem--not just the 
responsibility of one particular group. Everyone must pitch in--law 
enforcement officers, teachers, parents, students, policymakers, 
religious, business, and civic leaders, and the health care community.
    This summer, Senator Specter and I met with members of the 
entertainment industry to discuss their role in quelling violence in 
our society. As I am certain you will all agree, this is no time for 
finger-pointing. It is time for coordinated action.
    We have all contributed in some way to the problems we face today. 
In fact, I would guess that every one of us has sent messages to our 
children that, in hindsight, we wish we hadn't--by condoning cliquish 
behavior among our children, by turning a blind eye to displays of 
intolerance or abuse, or by being too busy to listen and watch more 
closely for signs that could indicate the need for intervention in a 
child's life.
    That is why I believe very strongly that elementary and secondary 
school counseling programs are vital to the success of our efforts.
    I want to thank Senator Specter for including $20 million in his 
Initiative to expand the number of counselors in our nation's 
elementary schools.
    We know from experience that programs like Smoother Sailing can 
make a difference, especially in the early grades. Teaching young 
people to manage anger and resolve conflict peaceably in the early 
grades can certainly provide many of the tools and skills children will 
need throughout their lives. There are times when I think perhaps 
Members of Congress could benefit from such skills as well! But that is 
for another discussion.
    In closing, I must stress the importance of this initiative's focus 
on prevention.
    Too often we want to have a quick fix that misses the underlying 
causes of the problem. We don't look at the children involved and the 
circumstances they face. We don't look at what preventive steps could 
have been taken.
    For example, a child who is facing abuse at home may not have 
access to the counseling he needs; a child with a disability that 
causes her to act out may not be receiving the behavioral interventions 
she needs.
    And another child who goes home to a neighborhood controlled by 
gangs may not have access to an after-school program that could make 
all the difference.
    We must do all we can to help students face these and other 
problems so they can succeed and so our schools can be safe.
    I look forward to hearing the testimony presented today by 
Secretary Riley, Secretary Shalala, Secretary Herman, and Deputy 
Attorney General Holder.
    And I look forward to working with all of you in our collective 
efforts to provide safe schools and safe, healthy communities in which 
all America's children can learn and grow into healthy adults.

               Opening statement of Senator Patty Murray

    Senator Specter. Senator Murray, do you have an opening 
statement?
    Senator Murray. Thank you, Mr. Chairman. I will not make a 
long opening statement. I just want to thank the panelists, all 
of them, who have been very involved in this issue and who have 
worked very hard to make sure that young people across this 
country feel connected.
    I think Senator Byrd's opening statement and his questions 
really touched on the heart of what is wrong. That is that a 
lot of young people do not feel connected today. There is no 
simple, single answer. But certainly we need to work at every 
level to make sure that more people are involved, pay attention 
to our young people, and connect them to the rest of their 
community.
    I absolutely agree that smaller class sizes are essential. 
That is something I have worked very long and hard on. Because 
I know that if a teacher knows their kids, they are much less 
likely to have incidents like this. I thank Senator Byrd for 
his strong support of that.
    I think we have to also make sure that parents have the 
time to be involved. When you ask parents why are not you 
involved with their child, they are at work. They have to be in 
today's world. I have introduced legislation to extend the use 
of family and medical leave, to allow parents time off to 
participate with their child in their school. I think we have 
to set those examples and set that tone in this country so that 
it is acceptable in our society for parents to participate with 
their kids again and not fear losing their job if that is 
there. I think jobs are important. We all have one. But we have 
to also tell parents it is OK to be a parent, too. So I think 
that is extremely important.
    I think we have to reconnect our communities, our 
businesses, our nonprofit groups with their involvement with 
young people today. I hope that each one of us, as adults, 
takes the time to smile at a young person in a mall instead of 
passing them by and looking away. Because I think it is a very 
important part of their lives, and a lot of them do feel that 
adults are not connected.
    There is a lot of work to be done, and I appreciate Senator 
Specter taking this issue on and looking at it in a very broad 
perspective, and all the panelists who are involved. I would 
just urge all of us to involve students in this, as well. I 
have a group I call my Senate Advisory Youth Involvement Team, 
my SAYIT group. They are a young group of students in my State 
who advise me on policy. I meet with them on a quarterly basis, 
and we connect through E-mail and on telephone calls. My goal 
is to make them understand that the policy we do here affects 
them, but also to be a listener to all of them.
    Senator Byrd, I think when you have your forum that you 
will find that they have a lot of ideas and are worth listening 
to, as I am sure you know, as well.
    So I hope, in your legislation, Senator Specter, we were to 
involve students in the decisionmaking process and get their 
input as we go along, too. Because they are the ones who really 
know what the solutions are.
    So I thank the panelists and I thank Senator Specter.
    Senator Specter. Thank you very much, Senator Murray.
    We now turn to our distinguished panel. Considering the 
sequence of speakers, I was searching for a way to do this with 
appropriate protocol. I found that there was an absolute 
answer, that I did not have to reinvent the wheel. The answer 
is that secretaries are recognized in the sequence in which 
their departments were created. So, that is that.
    We turn first to the very distinguished Secretary of Labor, 
whose Department was organized in 1913. The question probably 
is in some minds when the other Departments were established.
    We will let you know when we come to them in the sequence.
STATEMENT OF ALEXIS M. HERMAN, SECRETARY OF LABOR, 
            OFFICE OF THE SECRETARY, DEPARTMENT OF 
            LABOR
    Secretary Alexis Herman was confirmed in May of 1997. Prior 
to that, she served as Assistant to the President as the 
Director of White House Public Liaison. Her career in public 
service goes back to the Carter administration, where she was 
the Director of the Women's Bureau. She is a graduate of Xavier 
University, in New Orleans. We welcome you here again, Madam 
Secretary, and look forward to your testimony.
    Our practice is to have 5-minute intervals. So we will put 
the green lights on. But we do not expect you to stop 
necessarily at the red, considering your lofty position and the 
importance of this subject.
    Secretary Herman. Thank you very, very much, Mr. Chairman. 
And thank you for convening this most important hearing. To 
you, to Senator Harkin, Senator Byrd, Senator Murray, to the 
distinguished members of this subcommittee in their absence, we 
are very pleased to be with you today. I am very happy to join 
my colleagues, Secretary Riley, Secretary Shalala, and Deputy 
Attorney General Eric Holder, to describe to you the 
administration's wide-ranging approach to this urgent national 
problem of youth violence.
    In Colorado, Oregon, Arkansas, and too many of our American 
States, we have seen great tragedies. All of us have shared in 
the grief of the young people and their parents. It is 
altogether necessary that we work together to find ways to 
solve this problem.
    I believe that youth violence, that this problem reflects 
the reality, as you have said, that a growing number of our 
Nation's young people feel disconnected and disenfranchised. 
They feel left out and they are frustrated. Many youth in our 
poorest communities are unemployed, undereducated and idle. 
Crime rates rise as a result, and they feel no opportunities 
exist for them to be successful.
    All of us want the best for our children. We want them to 
have all of the knowledge, skills and tools that they can have 
to achieve and to succeed. We need to provide hope to left-
behind kids in left-behind communities, to make sure that young 
people from our rural communities, from our inner cities, have 
a real shot to be a part of the inner circles of opportunities.
    I have made the issue of working with young people a top 
priority for most of my life, and certainly a top priority now 
for me as Secretary of Labor. I believe it is important to 
provide viable alternatives to life on the streets.
    I know, Mr. Chairman, that you have recognized this need 
for alternative choices very early on. You certainly have been 
at the helm of our efforts to provide leadership to our Youth 
Offender projects. When you and I had the opportunity to visit, 
in Philadelphia, this past May with you and Mayor Rendell and 
the District Attorney, to award one of the Department of 
Justice and the Department of Labor Youth Offender grants, we 
heard firsthand from young people there about their criminal 
records and the fact that they want jobs. We heard in 
particular from one young man, Kenneth Dulaney, who told us in 
his own words:

    I began hanging out with the wrong crowd. I started smoking 
weed and selling drugs at age 14. I dropped out at 16 and 
started selling drugs and robbing people for a full-time job. 
If I could rewind the time, if I could go back, it would all be 
good. But I can't.

    He was introduced to Ralph Midora, who now runs the TOPS 
program in Philadelphia, at Simon Gratz High School. He helped 
this young man to realize that there was more to life than 
violence. He said to us: Now I'm working full-time and also 
attending high school. I will be the first male in my family to 
graduate in three generations.
    Unfortunately, Kenneth's story is not alone. We know today 
that there are nearly 15 million out-of-school youth. Almost 90 
percent do not have a college degree; 70 percent of them have a 
high school degree or less. That is over 10 million kids.
    The Urban Institute estimates that the lost wage potential 
of each year's half-million high school dropouts adds up to $88 
billion in lost revenue to our economy, and that the added 
crime rate for high male dropouts is an additional $33 billion 
in costs to society. That is unacceptable.
    We cannot comfort ourselves by assuming that these young 
people will ultimately make their way out of trouble and into 
the work force. Because when we take a hard look at this 
population, we know that they live in communities where jobs 
have dried up, where support networks have broken down. They 
face a new world economy that will literally be unforgiving to 
them without the skills to get ahead. When young people cannot 
fulfill their potential, America cannot fulfill its promise. We 
have to do better.
    We must make sure that we help these young people turn 
their lives around. We can do this, in part I believe, by 
recognizing that the best crime prevention strategy is in fact 
a jobs promotion strategy. As a part of this effort, I strongly 
urge Congress to support the President's $2.7 billion fiscal 
year 2000 request for the Department's investment in at-risk 
youth. We have a new delivery system that is a part of the new 
bipartisan Work Force Investment Act. We have now Youth 
Opportunity grants that go to high poverty areas. We need to 
continue funding our longstanding commitments, in particular to 
Job Corps.
    Funding these investments, I believe, need to be a part of 
a three-part strategy. First, we need to engage the whole 
person. Second, we need to engage the whole community. Third, 
we need models that will actually work.
    Engaging the whole person means that we can no longer 
simply look at hard skills, but all of the interpersonal skills 
that are also necessary today. Engaging whole communities means 
exactly that--faith-based communities, community based 
organizations, law enforcement communities. We all have a role 
to play. Then, we need to look at the model communities and 
look at the model efforts that are working.
    I am very pleased that we have launched something that is 
now called the YO! Movement, the Youth Opportunity Movement, 
where we are working very closely with the private sector to do 
just that. Since July, we have been able to raise $30 million, 
and we have been able to generate an additional 4,000 in jobs 
for commitment to our Youth Opportunity Movement.
    As we look to the future, I know that you recognize that we 
can ill afford to have a generation of young people who may 
never know what it is to work. You know the better some of us 
do, the better all of us do. We do not have a person to waste 
in this new economy. We certainly do not have a generation to 
lose.
    I look forward to working with you on this most important 
effort as we go forward together into the new millennium.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you very much, Secretary Herman.
    [The statement follows:]
              Prepared Statement of Hon. Alexis M. Herman
    Mr. Chairman, and distinguished Members of the Subcommittee: I am 
pleased to have the opportunity to testify before you today concerning 
the Department of Labor's commitment to alleviating the pervasiveness 
of youth violence in the United States. Mr. Chairman, I commend your 
leadership in holding this hearing on such an important national 
problem.
    With the 15 shooting deaths at Columbine High School, along with 
other shootings in the broader community that we witness all too 
frequently through the media, our Nation is quite appropriately shocked 
at the severity of youth violence in this country. In 1997, 6,083 young 
people between the ages of 15 and 24 were victims of homicide. That is 
an average of 17 youth killed in the U.S. every day. And over the past 
decade, there was an annual average of nearly 400,000 crimes against 
another person committed by young people.
    I believe the youth violence problem reflects the reality that a 
growing number of our Nation's young people feel disconnected and 
disenfranchised from our communities. When our youth feel as if they 
have no role in society and no educational or employment opportunities, 
the likelihood of becoming involved in delinquent and violent 
activities increases. In particular, out-of-school youth in our poorest 
communities often lack access to adequate educational and employment 
opportunities. In these communities, high unemployment rates and low 
educational attainment levels are often inextricably linked to high 
crime rates. I believe that these various problems are symptoms of 
lowered expectations and the belief among young people in our poorest 
neighborhoods that no real opportunities exist for them to be 
successful in a career, or to live and work at a level above the 
poverty line.
    All of us--wherever we are in this world--want the very best for 
our children. We want our children to have all the knowledge, skills 
and tools that they will need to meet the challenges they will face in 
being successful, contributing members of our society in the 21st 
Century, including the challenges of next century's workplaces. Our 
young people will benefit from early work experiences--they learn 
responsibility, punctuality, working productively with others, and many 
other important skills that can last a lifetime.
    As Secretary of Labor, I have made as one of my top priorities 
providing youth with viable alternatives to life on the streets. Our 
Department's vision for young people is very clear: that all youth, 
particularly those out of-school, acquire the necessary skills and work 
experience to successfully transition into adulthood, further education 
and training, and careers. If we are to succeed in stemming the youth 
violence problem that threatens our communities and families, we must 
begin by building opportunities for at-risk young people and out-of-
school youth to acquire skills and gain jobs so that they can become 
productive, contributing members of their communities. I firmly believe 
that one of the most effective ways to keep young people from turning 
to crime is to provide ample opportunities to succeed. That is why it 
is imperative that the Department's programs for at-risk youth be fully 
funded at the President's request level.
    While we want our young people to have opportunities for 
instructive and constructive early work experiences, at the same time, 
these experiences must enhance, not compete with their education. And, 
above all, we want our children's work experiences to be safe.
    Mr. Chairman, you recognized the connection between employment, 
education and training opportunities for youth and the prevention of 
juvenile crime early on. It was under your leadership that Congress 
established the Youth Offender projects to increase education levels 
and employment and reduce recidivism and gang involvement among youth 
offenders.
    When I was in Philadelphia this past May with you, Mayor Rendell, 
and the District Attorney to award one of the Youth Offender grants 
which the Department of Labor jointly carries out with the Department 
of Justice, we heard first hand from youth with criminal records that 
they want jobs. Their pasts have often been filled with despair and 
poor choices, but they desperately want to look to the future and to 
believe there is opportunity ahead of them. As Kenneth Dulaney told us 
in his own words, ``I began hanging with the wrong crowd. I started 
smoking weed and selling drugs at age 14. . . . I dropped out at 16 and 
started selling drugs and robbing people as a full time job. If I could 
rewind the time to when it was all good, I would, but I can't.'' He was 
introduced to Ralph Midora, who runs the TOPS program at Simon Gratz 
High School. ``Mr. Midora helps me realize that there's more to life 
than violence. Now I'm working a full time job and also attending Simon 
Gratz High School. I will be the first male in my family to graduate in 
three generations.'' And Adelina Costible, a 17 year-old from South 
Philadelphia echoed the need for training and employment opportunities. 
Adelina, who was recently discharged from the Gannondale juvenile 
correctional facility and is now enrolled in a GED program, wants to 
find a job where she can live with her grandmother, stay off the 
streets, and be a productive member of society. She believes that with 
meaningful work she can turn her life around. I believe this too.
    And Kenneth and Adelina are not alone. I have met with youth from 
all parts of the country, and the number one concern they raise is the 
need for jobs. Young adults know that in order to succeed in today's 
dynamic economy, they need skills and they need someone to show them 
the path to opportunity.
    While this country has been experiencing an extended period of 
economic growth, geographic pockets of extreme poverty still exist in 
both urban and rural areas across the country. Young people living in 
these poverty areas are simply not afforded the same educational and 
employment opportunities as youth in other areas. The employment rate 
for young high school dropouts who live in urban poverty areas is 45 
percent. The comparable rate for dropouts in rural poverty areas is 49 
percent.
    We know that unemployment rates are closely linked to educational 
attainment. In America's largest urban school districts, less than 50 
percent of each year's entering 9th grade class graduate from high 
school four years later. This statistic represents many youth who never 
complete high school and who are at risk of never having a productive 
career. Worse yet, many of those youth become caught up in a culture of 
violence and crime.
    We also know that persons living in high-poverty neighborhoods are 
more likely to be perpetrators or victims of violent crime. A study by 
the Vera Institute shows that a disproportionate number of prison 
inmates were raised in high-poverty neighborhoods. Children in families 
with annual incomes of under $15,000 are 22 times more likely than 
children in families with incomes of $30,000 to suffer from abuse and 
neglect. Hispanic and other minority youth are disproportionately 
affected by crime and violence in this country. Homicide is the leading 
cause of death for African-American youth ages 15 to 24. African-
American males in that age group are ten times more likely to be 
murdered with a gun than their white peers.
    The lack of economic development in poor communities, whether urban 
or rural areas, means less after-school or part-time work for young 
people. The high levels of unemployment among adults mean that young 
people do not have effective networks of job information or the ability 
to get jobs through informal means, such as referrals from family and 
friends. And economic hardship in their neighborhoods means that the 
major social institutions that help in employment, such as schools, 
churches, and community organizations, face significantly higher 
barriers in their efforts to help young people.
                      coordinated federal strategy
    Given the multiple factors influencing our young peoples' success, 
and the multiple public and private entities and programs which can 
help youth transition to adulthood, it is imperative that we have a 
coordinated youth strategy at the national level in order to maximize 
the impact of our Federal resources at the local level. As you know, 
the Administration is considering establishment of a youth violence 
council that would build on the existing collaboration between the 
Departments of Labor, Education, Health and Human Services, Justice and 
other Federal agencies, to increase policy coordination and assist in 
program integration in ways that benefit local communities.
    Mr. Chairman, your leadership in Congress has also brought much 
needed attention to the value of a national strategy for addressing 
youth violence. My staff has appreciated the opportunity to engage in 
the cross-disciplinary discussions about youth violence which you have 
chaired. Today's hearing is another important step towards bringing 
focused attention to one of the most serious social problems facing our 
country. Let me explain in a bit more detail how the Department of 
Labor has been working with other Federal agencies, State and local 
governments, and private sector partners to address youth issues.
                   department of labor youth strategy
    We know that no community can thrive if large numbers of its youth 
and adults are unemployed. To address chronic joblessness in high-
poverty communities, our research and program experience tell us that 
we need a combination of efforts to intensify local economic 
development, boost employment rates of young adults, and increase the 
long- term educational attainment of children growing up in these 
areas. Simply put, community resources have to be brought together to 
create jobs, and competent, caring adults must work to ensure that our 
young people are prepared for and can be placed in them.
    At the Department of Labor we are working fervently to do just that 
through an all-encompassing strategy called the Youth Opportunity 
Movement (YO!). We are working through local communities to build 
partnerships among government, community and faith-based organizations 
and business and labor leaders--and also with youth to ensure that 
young people are prepared for the jobs of the 21st century and can 
share in the benefits of our growing economy. The YO! Movement focuses 
on the ``whole person'' and engages the whole community to bridge gaps 
and break cycles that lead to poverty and despair.
    In early July while in the Watts area of Los Angeles for an event 
with the President's New Markets tour, the President and I kicked off 
the YO! Movement. The New Markets initiative seeks to extend the 
economic prosperity enjoyed by so many in this country to those in our 
poorest geographic areas. The YO! Movement specifically targets the 
youth in these areas for increased job opportunities, as well as 
increased academic and skill attainments.
    The Los Angeles event has resulted in the commitment of over 4,000 
jobs by major employers and over $30 million in private sector funds 
for at-risk youth in 11 disadvantaged communities across the country 
that are currently receiving Youth Opportunity demonstration funds from 
the Department of Labor. My staff is using these national commitments 
by employers, foundations, and other organizations to foster the 
creation of jobs and training opportunities to improve the 
employability prospects for youth living in those local areas.
    Too often in the past, we mistakenly assumed that merely providing 
Federal money to local areas, particularly impoverished local areas, 
would remedy problems that had been building up over many years. The 
Federal investment that was provided to these areas was never enough to 
serve more than a small fraction of the eligible population--often less 
than 10 percent. Now, though, we appreciate that the coordination and 
support of multiple organizations, at all levels, is required. Local 
communities need the attention and involvement of employers, foundation 
leaders, organization directors, and others able to provide the local 
opportunities our young people need. That involvement, though, has to 
be real. It has to move beyond event strategies and large national 
meetings. The Federal Government's role has to become that of helping 
to actualize those commitments and connections to make an impact at the 
local level and, in some cases, sustain that impact after the cessation 
of Federal funds. In the case of Youth Opportunity Grants, for example, 
the Federal financial commitment is not a permanent contribution but 
rather seed money designed to assist in the development of a permanent 
investment in youth at the local level.
    The first step towards doing so is to ensure that we--at the 
Federal level--strategically coordinate and integrate our programs and 
resources. At the Department of Labor we will soon release a ``How-to-
Guide'' for local leaders interested in building their own YO! 
Movement. This resource guide shares examples of programs that 
exemplify key principles--such as comprehensive services, long-term 
follow-up, the involvement of caring adults, and a commitment of 
excellence--along with suggestions for how to effectively involve 
foundations, employers, and community-based organizations in meeting 
the employment and training needs of young adults.
           department of labor youth programs and initiatives
    There are several ways the Department of Labor adds value to the 
resources Congress provides to reduce the incidence of youth violence 
in our society. The President's fiscal year 2000 request includes over 
$2.7 billion for the Department's investments in at-risk youth. Fully 
funding this request, which would serve almost 800,000 youth, is an 
important part of addressing the youth violence problem. Our largest 
investments come under the new Workforce Investment Act of 1998 (WIA) 
that we are now implementing and that becomes fully effective on July 
1, 2000. WIA makes a number of reforms and improvements to youth 
programs currently operating under the Job Training Partnership Act. 
For example, WIA focuses on providing youth assistance in achieving 
both academic and occupational learning; acquiring leadership skills 
and offering youth development activities; making a commitment to youth 
through long-term follow-up services; and preparing young people for 
education, training, and eventual employment. The President's fiscal 
year 2000 request includes $1 billion for WIA formula-funded youth 
programs, an amount that is essential for these improved programs to 
succeed.
    One of the major reforms of the WIA is the establishment of a youth 
council in each local workforce investment area. The youth council is a 
subgroup of the local workforce investment board and is responsible for 
recommending and coordinating the youth policies and programs within 
the specific geographic area. In accord with the legislative intent of 
WIA, we are promoting the local youth council as an important tool for 
broadening participation in the design and delivery of youth services 
in order to enhance coordination and effectiveness at the local level. 
For example, we are currently working with the Department of Justice to 
encourage the participation of local juvenile justice officials on 
local youth councils. Likewise, we expect education representatives 
from local school-to-work partnerships and youth health practitioners 
to join the youth councils. Ultimately, young people and their parents 
will benefit because they will be able to take full advantage of 
available youth assistance, regardless of the funding source. In 
addition, area service providers that include local workforce, 
education, and community- and faith-based organizations, will be better 
able to guide our young people to services most suited to meet their 
diverse needs.
    WIA also authorizes $250 million a year for five years for Youth 
Opportunity Grants, and the President's fiscal year 2000 request 
includes $250 million for this important initiative. These competitive 
grants to highly impoverished areas will provide them with the funds to 
improve the employability prospects for their youth. The mission is 
simple: that youth in our Nation's poorest areas, particularly those 
who are out-of-school, acquire the necessary skills and experiences to 
successfully transition into adulthood and viable careers. All too 
often the transition to adulthood is made as a member of a gang, 
disconnected from any caring and responsible adults. In the worst 
cases, they never have a chance to become adults.
    This reality truly raises the stakes for our Youth Opportunity 
Grant initiative. The Youth Opportunity Grants, building on those 11 
initial demonstration projects that I spoke of earlier, offer a chance 
to build improved systems for addressing the needs of youth in high 
poverty areas. I envision that these grants will be used as a 
complement to our formula funds, Youth Offender Grants, Safe Schools/
Healthy Students grants, Department of Education monies, Empowerment 
Zone and Enterprise Community funds, and other programs funded at the 
Federal, State, and local levels. We have announced the availability of 
25-30 Youth Opportunity Grants to high-poverty areas and will receive 
grant applications by September 30. We expect to award these grants in 
December, 1999.
    Staff from across the Department of Labor, as well other 
Departments, including Justice, Education, Health and Human Services, 
and the Corporation for National Service have been working to connect 
our youth programs. We are working to lessen the bureaucratic burdens 
at the local level for those communities attempting to coordinate 
multiple funding streams by encouraging cross-participation and 
linkages with our programs, and through involvement in the One-Stop 
system under WIA. For example, we are engaging the Department of 
Justice to assist in curbing youth delinquency and dropping-out of 
school, as well as preventing gang and gun violence in the Youth 
Opportunity target communities. Connectivity for these projects and 
others like them is key if we as a Nation are to make any headway in 
meeting the needs of youth who lack the necessary skills to succeed in 
this society, and who are at risk of becoming perpetrators or victims 
of violent crime.
    The difficult task we have before us becomes evident when we 
consider the multiple problems faced by at-risk or out-of-school youth: 
high drop-out rates; learning disabilities; problems at home, such as 
lack of parental involvement, improper nutrition, unsafe or unsanitary 
conditions, or abuse; gang influence; criminal environment; 
responsibilities for younger siblings, children of their own, or 
children of their siblings; or drug or alcohol abuse, either on the 
part of their parents, or as a personal abuse problem.
    Suffice it to say that the needs of an at-risk or out-of-school 
youth are so manifold that no single program or single youth funding 
stream will be able to address all their complex problems. No one 
program can speak to the issues of employability, parenting, crime, 
violence, drug abuse, and all of the other potential hurdles that at-
risk youth may need to tackle at the same time. We must do whatever 
possible through a variety of programmatic methods and practices that 
are truly connected.
    One such model that we have been working with for some time to more 
effectively connect to schools, community-based organizations, and 
other local entities is the Job Corps, for which the President requests 
$1,347 million for fiscal year 2000--an increase of $38 million. Job 
Corps has succeeded in providing youth with the opportunity to move 
from a negative environment to a more positive one by enrolling in 
residential Job Corps centers. At these centers, youth are able to 
benefit from academic and vocational training, work-based learning, 
employability skills development, counseling, and related support 
services. Consistently, 80 percent of all youth who participate in Job 
Corps are placed in employment or higher education.
    Enrollment in a Job Corps center often brings an important aspect 
into a youth's life that he or she may not otherwise experience: 
responsibility to help create and maintain a safe environment. Job 
Corps operates with a policy of zero tolerance for violence and drug 
use. This policy, supplemented by Job Corps center rules and behavior 
management systems, seeks to make students understand that they are 
accountable for their own actions.
    The Job Corps model is a successful program structure, and provides 
opportunities for nearly 70,000 young people every year. However, the 
capacity of Job Corps is finite and its service strategy requires a 
substantial investment. Accordingly, the number of youth served each 
year represents only a small fraction of Job Corps' target population 
of unemployed high school dropouts from families with low income levels 
and high welfare dependency. We are working to maximize the reach of 
our Federal resources by partnering with other Federal programs. For 
example, staff at our Job Corps sites are working with staff at the 
Corporation for National Service to enroll our Job Corps participants 
in the National Civilian Community Corps so that Job Corps students 
gain community service and work experience. We also are working with 
the U.S. Army to establish Junior ROTC programs at our largest Job 
Corps centers to encourage personal responsibility and expose Job Corps 
students to career opportunities in the Army.
    The need for additional opportunities for our young people, as well 
as their distinct learning and support needs, requires that we continue 
to look to a number of varied youth service models.
    The School-to-Work opportunities initiative, jointly administered 
by the Departments of Labor and Education, also has had positive 
results with at-risk and out-of-school youth. The President's fiscal 
year 2000 request includes a total of $110 million for this effort ($55 
million each in the Departments of Labor and Education). Through 
School-to-Work, classroom activities are made more relevant to the work 
world by using contextual learning strategies and work-based 
activities, such as mentoring, job shadowing, and internships.
    School-to-Work has also succeeded in achieving connectivity among 
programs funded by different sources. Through School-to-Work efforts, 
local workforce activities have become better connected to local 
dropout prevention initiatives, community college programs, and 
supportive services for young people with learning and other 
disabilities. School-to-Work implementers across the country have 
concluded that youth programs must be closely linked to both public and 
private resources within a given community in order to achieve success.
    Such community linkages are also the focus for the $12.5 million in 
FY1998 for Youth Offender Demonstration Projects which you authored, 
Mr. Chairman. As I mentioned earlier, Mr. Chairman, this spring we 
jointly announced the successful fiscal year 1998 grantees, including 
the Private Industry Council of Philadelphia. Eleven of these projects 
are using a community focus for integrating youth offenders back into 
workplace and education settings. Five of these are Model Community 
Projects that provide education, job training and placement, individual 
and family counseling, and case management services. Six Community-Wide 
Coordination Projects are located in high-crime, high-poverty areas. 
These projects work with local youth service providers to develop 
linkages to coordinate crime prevention and recovery services for youth 
already involved in the criminal justice system or in gangs. Our 
Department has linked with the Department of Justice in the design of 
this service strategy and the coordinated assistance serves as a model 
for future projects.
    This demonstration project initiative also funds three juvenile 
corrections facilities where youth will receive School-to-Work 
counseling while at the institution, and extensive case management when 
they return to their communities. We expect entities receiving these 
Federal grant dollars will fully integrate their services with other 
programs and funding streams. All youth served under the Youth Offender 
Demonstration are either: institutionalized, at-risk of becoming 
involved in criminal activities, or involved or have been involved in 
gangs.
    The Department of Labor also sponsors a Federal Bonding service to 
help ex-offenders--youth and adult--secure and retain jobs. This 
service, often combined with other job training and employment 
services, can help employers who want to employ ex-offenders--and 
others including former substance abusers--but are unable to procure 
bonding coverage through normal commercial channels because of their 
prior criminal records. The Department of Labor provides each State 
with a floor of ten bonds and above that level, States and local 
communities can buy additional bonds to use in helping ex-offenders 
obtain employment.
    In addition, the Department of Labor administers the Work 
Opportunity and Welfare-to-Work Tax Credits that provide employers with 
a tax incentive to hire specific target groups, including at-risk 
youth, welfare recipients, and ex-felons. Last year, tax credit 
certifications were issued to employers for approximately 19,000 
Empowerment Zone and Enterprise Community residents aged 18-24, and 
nearly 10,000 ex-felons.
    I also should mention our coordinated funding efforts with the 
Department of Justice for the start-up and operation of Career Prep 
programs at 40 Boys and Girls Clubs throughout the country. These 
programs are located at ``TeenSupreme Centers,'' funded by the Taco 
Bell Foundation, and provide job readiness and career guidance to all 
youth who reside in the targeted communities. A three-year independent 
study conducted by Columbia University confirmed that Boys and Girls 
Clubs in public housing communities have reduced juvenile crime in 
those areas by 13 percent and drug activity by 22 percent. That is one 
of the reasons we chose to partner in this project.
    Each of these programs provides opportunities for at-risk youth to 
engage in productive activities as an alternative to idleness.
     impact of department of labor youth programs on youth violence
    Studies have shown how our youth programs can reduce the incidence 
of youth violence, and serve to strengthen my belief that the continued 
funding of such efforts is indeed the right thing to do. The long-term 
evaluation of the Job Corps program completed early in the 1980's 
showed the program reduced serious criminal activity among participants 
compared to non-participants. Specifically, there were fewer arrests 
among Job Corps participants for murder, robbery and larceny. In 1994 
we launched a new evaluation of the long-term impacts of Job Corps 
including its impacts on social behavior such as crime. Early next 
year, first impact results from this study will provide more up-to-date 
estimates of Job Corps' impacts on crime.
    More recently, an evaluation of JOBSTART--a non-residential 
Department of Labor program based on the Job Corps--showed reduced 
criminal activity among participants during the in-program period, and 
also showed a six percent reduction in crime in the follow-up period 
among youth with prior arrest records when they entered the program.
    These and other data have furthered my belief in the continued 
positive impact of our youth programming efforts, and have resulted in 
our proposing additional new initiatives aimed at assisting young 
people.
   new activities to help at-risk youth and to address youth violence
    Building on what we have learned, the Department of Labor is 
pleased about the opportunity to participate in the next round of the 
Safe Schools/Healthy Students initiative--with linkages to Youth 
Opportunity and Youth Offender Grants and to the youth councils being 
established around the country. This expanded effort--originally a 
collaboration among the Departments of Education, Health and Human 
Services, and Justice--awards competitive grants to school districts 
and their mental health and law enforcement partners to promote healthy 
childhood development and prevent violent behaviors. We will offer 
competitive opportunities by supporting business and education 
partnerships that will improve the longer-term employability of at-risk 
youth and reduce teens' idle time that can contribute to negative 
behaviors and lead to criminal activities. These partnerships will 
enrich the connections between secondary and postsecondary schools, 
alternative schools, out-of-school youth programs, and work-based 
learning.
    In order to be responsive to the need to more directly address 
youth violence problems, the Administration is proposing that the 
President's fiscal year 2000 pending $75 million budget request for a 
new Right Track Partnership be revised. Right Track originally was a 
competitive grants initiative targeted to high poverty communities to 
prevent youth from dropping out of school and to encourage those who 
have already dropped out to complete their high school education.
    Instead, this initiative would be used for a competition that 
complements the Safe Schools/Healthy Students grants by supporting 
partnerships between local business, community based organizations and 
education entities to improve opportunities for at-risk youth, 
particularly out-of-school youth. These partnerships would work with 
traditional and alternative schools to offer strong academic and career 
preparation and would be aimed at ensuring that no youth gets left 
behind in a dynamic economy. Partnerships would include local schools 
and also build links to other efforts such as the Department of Justice 
Safe Streets activity, the Youth Opportunity Grant program, and others 
such as the Youth Offender investment. Structured, year-round services 
would encourage students--particularly low-income and limited English 
proficient youth and recent high school dropouts--to return, complete 
their high school education and thus, be able to go on to postsecondary 
education, apprenticeship, or good jobs that allow them to take 
significant steps toward adulthood and high skill, high demand and high 
wage careers.
    Attorney General Janet Reno and I will be announcing shortly a 
joint agreement that builds on our past and current efforts--including 
those I just mentioned--to help young men and women who become involved 
with the criminal justice system. We have formally agreed to move 
forward with the development of a comprehensive strategy to create job 
training, education, and employment opportunities for youth at risk of 
or who have been under the supervision of the criminal justice system.
    The Department of Labor's participation in efforts designed to 
reduce youth violence seeks to achieve three goals. First, with our 
State and local partners, we will continue to develop a comprehensive 
service system for the at-risk and isolated youth of this country as 
such a system does not yet exist. We will develop this system by 
implementing the objectives of the Workforce Investment Act in 
establishing local youth councils. We also view the local youth 
councils as a mechanism for connecting our currently-funded projects to 
other resources that will enable our programs, and ultimately our 
youth, to succeed.
    Second, we will encourage the workforce investment system to focus 
on follow-up services, and convince the young people we serve that no 
matter what their circumstances, local program operators will stick 
with them. If we know anything about serving youth, we know that 
sustained and long-term service strategies work, and short-term, stand-
alone interventions do not. While no strategy or intervention can 
provide a teenager with the caring influence he or she may have lacked 
as a young child, many of us know from personal experiences that the 
right intervention at the right time in a young person's life can help 
them develop valuable work skills and habits and responsible behavior.
    And, finally, we will continue our efforts to link our initiatives 
to other public and private sector programs through our YO! Movement. 
As mentioned above, the Administration is considering establishment of 
a youth violence council that would expand on the many partnerships 
between the Department of Labor, Justice, Education, Health and Human 
Services, and others which enable us to maximize the effectiveness of 
our Federal investments in our Nation's young people. And with the 
involvement of employers, foundations, celebrities, faith-based and 
community-based organizations that have joined the YO! Movement, we 
will work to truly engage in the whole community in creating productive 
opportunities for our young people.
    With these goals in mind, I believe that we will be successful in 
reducing the numbers of idle young people in the poorest neighborhoods 
of this country. I believe that more young people will look forward to 
building their careers and earning a living wage, regardless of where 
they reside. I believe that all of our efforts will come together to 
meet the diverse needs of the disadvantaged, and cause fewer of them to 
seek out the company of a gang or otherwise resort to violence.
    With all of the opportunities that we currently provide for our 
youth, the fact remains that the early stage of our at-risk system does 
not yet have enough resources for all those kids who need our help. The 
more varied our offerings, the more youth we are able to serve, the 
more likely that greater numbers of America's young people will enter 
adulthood as neither victims nor perpetrators of violent crime. A youth 
violence council would be a valuable tool for realizing these goals. 
And Mr. Chairman, your leadership in Congress on this important issue 
is a vital contribution to the development of a national strategy to 
turn youth away from crime and violence and towards a responsible, 
successful future.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I look forward to working with you and the members of this 
Subcommittee. I will be happy to respond to any questions.
STATEMENT OF DONNA E. SHALALA, SECRETARY OF HEALTH AND 
            HUMAN SERVICES, OFFICE OF THE SECRETARY, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES
    Senator Specter. We turn now to the distinguished Secretary 
of the Department of Health and Human Services, the Hon. Donna 
Shalala, longest serving Secretary of HHS in U.S. history. 
During her career, she has been a scholar and a teacher, as 
well as a public administrator. As Chancellor of the University 
of Wisconsin, Madison, she was the first woman to head a Big 10 
University, and was named by BusinessWeek as one of the five 
best managers in higher education. She has a Ph.D. from the 
Maxwell School of Citizenship in public affairs.
    For those who have been anxiously awaiting to know the year 
her Department was organized, it was 1953. I believe at that 
time it was Health, Education and Welfare, HEW, and now it is 
Health and Human Services.
    Secretary Shalala, thank you for joining us, and the floor 
is yours.
    Secretary Shalala. Thank you very much, Mr. Chairman, 
Senator Harkin, Senator Byrd, Senator Murray. I am delighted to 
have this opportunity to appear with my colleagues to discuss 
the complex problem of youth violence.
    Before I outline the administration's efforts, I would like 
to congratulate you, Mr. Chairman, Senator Harkin, Senator 
Stevens, Senator Byrd, Senator Murray, and the other members of 
the subcommittee for the leadership and dedication that you 
continue to demonstrate on this and so many other issues. Your 
initiative to prevent youth violence has much in common with 
our own. That is why I am convinced that together we can 
promote positive youth development and help make the lives of 
America's children safer and more secure.
    This process begins by recognizing that adolescent violence 
is reflective of a problem that is as large as it is 
persistent. While America was stunned by the 15 deaths at 
Columbine High School, the fact is that violence claims the 
lives of that many children virtually every single day in this 
country. Violence is one of many youth risk behaviors that are 
preventable. But there are no easy answers or shortcuts or 
panaceas. It is an extremely complex, multifaceted issue, that 
will depend in large part on our ability to promote the 
positive development of children before problems arise and 
become entrenched.
    While we can and must continue to learn more, we now know 
enough to take some important steps. A key point of the 1996 
Carnegie Report, ``Great Transitions: Preparing Adolescents for 
a New Century,'' was that more than one problem behavior is 
likely to occur in the same young person, and that these 
problems are likely to have common roots in childhood and in 
educational experience.
    According to a recent report published by my own 
Department, an increasing number of studies show that the same 
individual, family, school, and community factors often predict 
both positive and negative outcomes for youth. This HHS report, 
which summarizes the literature in this field, defines the key 
components of effective youth development programs. They do 
more than prevent risky behavior. They promote the social, 
emotional, cognitive, and moral competence of young people.
    Having said this, we must make two things clear. First, 
simply adding funds to Federal programs, while an important 
first step, cannot do the whole job. Federal agencies must 
coordinate their services, using models like Safe Schools/
Healthy Students programs. We must include State and local 
governments and community organizations and businesses as our 
partners.
    An effective long-term strategy requires that communities 
themselves develop integrated frameworks of services that 
promote healthy development, beginning at birth and continuing 
through adolescence. Most importantly, it must include 
adolescents themselves, and make them active participants in 
the strategies that we develop for their successful futures.
    Allow me to share one statistic with you. In 1997, 6,083 
young people, between 15 and 24, were victims of homicide. This 
is an average of 17 youth homicide victims per day. But public 
health researchers remind us that deaths are only the tip of 
the iceberg of youth violence. According to CDC's 1997 Youth 
Risk Behavior Survey, 37 percent of high school students 
reported being in at least one physical fight in the past 12 
months; 18 percent reported carrying a weapon at least once in 
the previous 30 days; and 6 percent had carried a gun.
    The President shares a deep and longstanding commitment to 
the prevention of youth violence. That is why last May the 
President directed the Surgeon General, Dr. David Satcher, to 
conduct a landmark study of the potential causes of youth 
violence and to identify successful prevention and intervention 
strategies. That report will carefully examine what science 
tells us about the role environmental influences play in 
normalizing violent behavior.
    Through a series of regional conversations, we intend to 
engage parents and students as well as educators and community 
leaders, including religious leaders, in a wide-ranging 
dialogue about the causes of youth violence and the solutions. 
But again, Mr. Chairman, youth violence is not a single problem 
with a single solution.
    For example, we already know we can help stop violence 
before it starts by ensuring that every child has a healthy 
start and by giving parents the helping hand that they need to 
nurture and protect their children. That means investing in 
quality child care and early educational services that can help 
lay the foundation for positive child development.
    Current research on brain development from birth to age 3 
shows the importance of children's earliest experiences in 
shaping their future development. The connections in the brain 
that are formed during this time provide the foundation for 
intellectual development and the capacity to form social bonds 
and empathize with others--key factors in promoting healthy, 
nonviolent development.
    Given the character of youth violence in America today, I 
am convinced the public health community can help make a 
vitally important contribution to its prevention. In public 
health, we approach the problem of youth violence by asking 
four questions: What is the problem? What are the causes? What 
works to help prevent the problem? How does intervention work?
    Responding to these questions requires the very best in all 
fields of research--the very best we have to offer. That is why 
the Department is mobilizing diverse research disciplines to 
respond to those questions. By doing so, to translate 
scientific research into programs that work.
    Let me also underscore the critical role that parents play 
in preventing adolescent violence. In fact, the National 
Longitudinal Study found that adolescents who report a close 
connection with their parents were the least likely to engage 
in risky behaviors. That is why efforts to help adults 
strengthen their parenting skills are so vitally important.
    Mr. Chairman, we know that integrated, positive youth 
development is far more effective than trying to prevent a 
single problem behavior in working with young people. Any 
successful strategy needs to include a long-term commitment of 
concerned adults, beginning at the birth of the child. Programs 
in schools and communities, in religious institutions or 
health-based organizations, that foster the presence of caring, 
committed adults in the lives of children have been shown to be 
of critical value.
    The concern that you and the members of this subcommittee 
have demonstrated will help us develop more effective 
strategies for promoting positive youth development and more 
peaceful communities. We look forward to working with you and 
your colleagues on a bipartisan basis to build on these 
efforts.

                           Prepared statement

    Mr. Chairman, I have submitted my longer statement for the 
record.
    Senator Specter. Your full statement will be made a part of 
the record. We appreciate your summary and we appreciate your 
testimony, Madam Secretary.
    [The statement follows:]
              Prepared Statement of Hon. Donna E. Shalala
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear with my colleagues from the Departments of 
Education, Labor and Justice to discuss the complex problem of youth 
violence in the United States. I am pleased to discuss our efforts at 
HHS to address youth violence as a public health and youth development 
issue and how we have coordinated our activities throughout the 
Administration.
    Before I discuss the Administration's efforts, I would like to 
congratulate you, Mr. Chairman, Senator Harkin, and the members of the 
Subcommittee, for the leadership and dedication that you have shown on 
this issue. Your initiative to prevent youth violence has much in 
common with the Administration's efforts, including an emphasis on 
involving a broad array of sectors in reducing youth risk behaviors and 
promoting positive youth development. I believe that we can work 
together to make the nation's children safer and more secure, as well 
as prepared for the future.
    Adolescent violence is reflective of a larger, persistent problem. 
While it is truly a tragedy that 15 lives were lost at Columbine High 
School, the fact is that violence takes a heavy toll on children every 
day in communities throughout the country, claiming the lives of far 
too many and affecting the lives of children and families in important 
and enduring ways.
    Violence is one of many youth risk behaviors that are preventable, 
but there are no easy answers, shortcuts or panaceas. It is an 
extremely complex, multi-faceted issue which will depend significantly 
on our society's ability to promote the positive development of 
children, before problems arise and become entrenched. While we can and 
must continue to learn more, we now know enough to take some important 
steps.
    In the 1996 Carnegie Report, entitled Great Transitions: Preparing 
Adolescents for a New Century, the authors wrote: ``Current 
interventions on behalf of young adolescents . . . often do not take 
into adequate account two findings from research: that more than one 
problem behavior is likely to occur in the same individual; and that 
these problems are likely to have common roots in childhood and 
educational experience.'' Subsequently, this June, the Department 
published a report entitled, Positive Youth Development in the United 
States, which revealed that an increasing number of studies show that 
the same individual, family, school and community factors often predict 
both positive and negative outcomes for youth.
    These research findings are leading us to what Karin Pittman calls 
a significant ``conceptual shift--from thinking that youth problems are 
merely the principal barrier to youth development to thinking that 
youth development serves as the most effective strategy for the 
prevention of youth problems.'' She has defined youth development as 
``an ongoing process in which all young people are engaged and 
invested, and through which young people seek ways to meet their basic 
physical and social needs and to build competencies and connections 
they perceive as necessary for survival and success.''
    The Positive Youth Development report defines the types of 
characteristics that are embodied in effective positive youth 
development programs. These programs do more than prevent risky 
behavior. They promote such things as the social, emotional, cognitive 
and moral competence of young people.
    Having said this, we must also make two things clear. First, simply 
adding funds to federal programs, while an important first step, cannot 
do the whole job. Federal agencies must coordinate their services, 
using models like the Safe Schools/Healthy Students program. We must 
include state and local governments and community organizations as 
partners. An effective, long-term strategy requires that communities 
themselves develop a coordinated and integrated framework of services 
that promotes healthy development beginning at birth and continuing 
throughout childhood and adolescence into adulthood.
    We also must understand that services alone will not achieve the 
goal of healthy development. A 1999 report written by James Hyman and 
published by the Casey Foundation, entitled Spheres of Influence, 
points out that in addition to the broad array of services, a 
comprehensive strategy must include ``opportunities for constructive 
use of time, meaningful experiences, and the support of caring adults 
(family members and mentors, as well as others).'' Most importantly, it 
must include adolescents themselves and make them active participants 
in the strategies that we develop for their successful futures.
                the scope of the youth violence problem
    Mr. Chairman, allow me to take a moment to describe some of the 
consequences of youth violence for our society. Rates of homicide among 
youths 15-19 years of age reached record-high levels in the latter half 
of the 1980s and continue to be among the highest ever recorded for 
this age group. Between 1985 and 1991, annual homicide rates among 
males 15-19 years old increased 154 percent (from 13 to 33 per 
100,000). Homicide rates for young males began to decline in 1994 and 
dropped 25 percent between 1993 and 1996 (from 34.7 to 26.1 per 
100,000). In 1997, the latest year for which we have data available, 
the rate of homicide among males 15-19 years of age was 22.6 per 
100,000--a continuing decline. Despite this encouraging trend, rates 
are still unacceptably high.
  --In 1997, 6,083 young people 15-24 years old were victims of 
        homicide. This amounts to an average of 17 youth homicide 
        victims per day.
  --Homicide is the second leading cause of death for persons 15-24 
        years of age, and is the leading cause of death for African-
        American youths in this age group.
  --In each year since 1988, more than 80 percent of homicide victims 
        15-19 years of age were killed with a firearm. In 1996, 85 
        percent of homicide victims 15-19 years of age were killed with 
        a firearm.
  --Between July 1992 and June 1994, 105 violent deaths occurred on or 
        near school grounds or at school-associated events. The 
        majority (81 percent) were homicides and firearms were used in 
        most (77 percent) of the deaths. The violent deaths occurred in 
        communities of all sizes in 25 states.
    Public health research tells us that deaths are only the tip of the 
iceberg of youth violence. There is an underlying layer of non-fatal 
violent behavior that should alarm us, both for its own sake and for 
its role as a precursor to lethal violence. We do not have all of the 
information we need to quantify the impact of non-fatal violence. 
Nonetheless, according to the CDC's 1997 Youth Risk Behavior Survey 
(YRBS)--a national survey of high school students--37 percent of high 
school students reported being in at least one physical fight in the 
past 12 months, 18 percent reported carrying a weapon at least once in 
the previous 30 days, and 6 percent had carried a gun. More than 7 
percent of the students reported being threatened or injured with a 
weapon on school property during the previous 12 months. And one out of 
25 students was afraid to go to school at least once in the previous 30 
days because of the threat of violence.
    These statistics indicate that there are ``early warning signs'' of 
potentially lethal violence. Awareness of the overall national 
incidence of bullying behavior, threats, weapon carrying, and other 
clues to potentially violent behavior is helpful. Responding 
effectively to these early warning signs is crucial.
    In addition to being victims and perpetrators of violence, young 
people also are harmed by being witnesses to violence. The National 
Longitudinal Study of Adolescent Health found that over one in ten 
middle- and high-school youths witness a shooting or stabbing each 
year. Among African-American youth, nearly one in four young people 
have this experience.
    We should also recognize that not all youth violence is directed at 
others. Youth suicide is an inseparable component of the problem of 
youth violence. Suicide is the third leading cause of death for young 
people, ages 15-24, in the United States. The rates have nearly tripled 
since 1950 but over the past decade have declined by about 10 percent. 
In 1997, according to the YRBS, about 21 percent of students in grades 
9 through 12--more than one in five--reported that they seriously 
considered taking their own lives during the previous year. And almost 
8 percent reported actually attempting suicide. Suicide among American 
Indian/Alaskan Native youth is especially high, with rates three to 
four times those of the general population.
       the administration's commitment to prevent youth violence
    President Clinton has a deep and longstanding commitment to 
positive youth development and prevention of youth risk behaviors. Last 
May, the President directed Surgeon General David Satcher to conduct a 
landmark study of the potential causes of youth violence and to 
identify successful prevention and intervention strategies. The process 
Dr. Satcher will follow in preparing this report will be unique. The 
report will look carefully at what the science tells us about the 
effect of environmental influences--including exposure to violence in 
real life and in contemporary media--in normalizing violent behavior. 
Additionally, we intend to engage the American people in a broad 
dialogue about the causes of youth violence, and the solutions. Unlike 
traditional Surgeon General publications, the youth violence report 
also will involve a series of regional conversations with parents, 
students, educators, business and community leaders. We expect to 
involve other federal departments--like Justice, Education, and Labor--
as active partners in this effort, as well.
    As you know, we also are working to establish a White House Council 
on Youth Violence, which will be an interagency coordinating body for 
federal youth violence services. We would welcome your input as we 
shape the Council's structure and responsibilities.
    Mr. Chairman, in discussing youth development as a significant 
prevention strategy, we understand the importance of starting early in 
our approach to healthy child and adolescent development.
    For example, we can help to prevent violence if we ensure that 
every child has a healthy start and if our policies support parents as 
they strive to nurture and protect their children from infancy through 
adolescence. Such a strategy includes a commitment to invest in quality 
child care and early childhood education services that can help to lay 
the foundation for positive child development. Current research on 
brain development from birth to age three shows the importance of 
children's earliest experiences in shaping their future development. 
The connections in the brain that are formed during this time provide 
the foundation for intellectual development and the capacity to form 
social bonds and empathize with others, which are key factors in 
promoting healthy, non-violent development.
    In addition, research shows that the quality of child care and 
other early childhood programs is integrally linked to the healthy 
development of children, preparing them for success in school, and 
helping them to establish positive social relationships with adults and 
peers. Furthermore, quality early childhood programs can help parents 
to strengthen their relationships with their children, improve their 
parenting skills and become more actively involved in their children's 
ongoing education and development.
    The President's fiscal year 2000 budget would expand the Child Care 
and Development Block Grant to make child care more affordable for low- 
and moderate-income working parents. Our budget includes additional 
funds to create an Early Learning Fund to enhance the quality of child 
care, with a focus on school readiness. The President's budget requests 
$5.3 billion for the Head Start program, a $607 million increase over 
the amount appropriated in fiscal year 1999. This funding increase will 
continue our bipartisan commitment to expand Head Start, America's 
premier early childhood development program, while assuring that 
increased investments are made in the quality of Head Start services. 
The request will support the expansion of Early Head Start for infants 
and toddlers and their parents.
    These investments reflect what Surgeon General Satcher described 
when he said: ``A crucial part of having a healthy start in life is 
communicating a message of hope. Without hope, a mother will not seek 
prenatal care. Without hope, a violent young person sees little purpose 
in treating their peers with respect and caring.'' That means parents, 
families, students, teachers, government officials, public health 
experts, nurses, doctors, researchers, and corporate, community and 
religious leaders must work together if we are to build a community 
foundation that instills hope, provides security and fosters optimism--
all essential conditions for a healthy and safe childhood.
           what does a public health approach have to offer?
    Mr. Chairman, I would like to discuss in more detail the 
contribution that we believe public health can make in preventing youth 
violence. Because the problem is so complex, the response needs to draw 
on the best that all fields of research have to offer: education, 
psychology, psychiatry, social work, criminology, public health, 
medicine, research, sociology, and others. This Administration is 
providing leadership in mobilizing these diverse disciplines to seek 
creative solutions to the problem of violence, and to translate what we 
know from science into sound prevention programs. This new approach 
begins with the coming together of the fields of youth development and 
public health.
    For example, one of the priorities for the Surgeon General is to 
promote healthy lifestyles. He focuses on physical activity, nutrition, 
responsible sexual behavior and avoidance of toxins, because together, 
they promote wellness and help us prevent a whole array of negative 
health outcomes. Similarly, in youth development, we focus on building 
assets--the physical, emotional and cognitive strengths young people 
need for survival and success.
    But the Surgeon General is also the first to acknowledge that 
healthy lifestyles are not just a matter for individuals, but that 
families and communities must support them, at every step of the way. 
For example, it is one thing to tell people about the value of 
exercise, but it is equally important to support them through after 
school sports programs, building safe walking paths in communities, or 
having workplaces develop exercise programs. Likewise, positive youth 
development will require not only the actions of young people 
themselves, but also a collaborative, coordinated approach by families 
and all segments of our society. And they have to occur in every 
community.
    Applying a public health approach to the problem of youth violence, 
we begin by asking four questions:
    1. What is the problem? (Surveillance).--We collect useful data on 
the problem to better understand it and to do something about it. We 
ask ``to whom, what, where, when, and how did it happen?''
    As an example, consider how CDC, in order to improve our monitoring 
of school-associated nonfatal injuries as well as violent deaths, is 
exploring the use of sentinel schools to report nonfatal injuries from 
violence on a routine basis. We hope to provide this kind of 
information to communities and schools throughout the country to alert 
them to emerging problems and to help them monitor the success of their 
responses.
    2. What are the causes? (Risk Factor Research).--We seek to 
discover what puts people at risk and what protects them from that 
risk.
    CDC and the National Institute for Mental Health (NIMH) are working 
together to conduct risk and protective factor research. We hope to 
learn more about the risk factors and the protective factors for youth 
violence and to disseminate this information to parents, teachers and 
public health officials. As we achieve a greater understanding of these 
circumstances, we can better assist parents, schools and health care 
providers to identify children at risk and help them before another 
tragedy occurs. We must also collect information about the existing 
individual and community assets that can be brought to bear on a 
violence problem.
    3. What works to help prevent the problem? (Intervention).--We use 
the knowledge we have of the pattern of the problem to develop 
interventions that might work to prevent it.
    President Clinton announced Saturday the award of the Safe Schools/
Healthy Students grants, which are a good example of an effective 
intervention in the problem of youth violence. The Department of 
Education, the Department of Justice and the Department of Health and 
Human Services collaborate to provide students, schools and communities 
with enhanced comprehensive educational, mental health, social service, 
law enforcement, and, as appropriate, juvenile justice system services 
that can promote healthy childhood development and prevent violence and 
alcohol and drug abuse. In the future, we hope to work more closely 
with Department of Labor as an additional partner in this initiative.
    An important function of this interdepartmental grant program is to 
require local communities to coordinate various youth services in order 
to access funds from three federal agencies concerned with promoting 
healthy child development and preventing violence in schools. Local 
education agencies consult with community leaders in law enforcement, 
mental health and social services and apply for grants from the 
Departments of Health and Human Services, Education, and Justice using 
a single application. The Substance Abuse and Mental Health Services 
Administration (SAMHSA) component of this initiative will provide 
support to 54 local education agencies to implement the mental health 
intervention services and early childhood psychological and emotional 
development portions of their comprehensive Safe Schools/Healthy 
Students Strategic Plan.
    4. How does intervention work? (Evaluation and Implementation).--We 
test those interventions to understand if they succeed better than 
current practices and how they actually accomplish their results. And 
we look at how we can accelerate the dissemination of research findings 
more quickly and effectively. We also explore how we apply the proven 
effective interventions broadly in the community. We seek to learn how 
to transfer successful interventions from one community to the other.
    To help state and local education agencies and schools promote 
safety and teach students the skills needed to prevent future injuries 
and violence, CDC, in collaboration with other federal and national 
non-governmental organizations, has recently begun to develop evidence-
based injury and violence prevention guidelines. The guidelines 
development process has been successfully employed to prevent tobacco 
use and HIV infection prevention, and to promote good nutrition and 
physical activity. It includes an extensive review and synthesis of the 
literature on effective program components and the creation of an 
expert panel to guide the process.
                    partners in violence prevention
    For many young people, violence begins at home. Research has shown 
that over two-thirds (68 percent) of youths who are arrested have a 
prior history of abuse and neglect. Moreover, abuse and neglect can 
cause significant neurological damage and frequently lead to learning 
and emotional problems. The Administration believes that our 
communities should invest in child abuse and neglect prevention 
efforts, and child welfare programs that protect children, while 
helping families address problems that place children at risk.
    We should underscore the critical role that parents play in 
preventing adolescent violence--and that parents could use some help. 
We know from research that violence prevention programs that include 
parent training and family intervention have a better chance of 
success. It's not hard to understand why.
    Last year, the National Longitudinal Study on Adolescent Health--a 
large study of 90,000 students in grades 7 through 12--found that 
adolescents who reported a close connection with their parents were the 
least likely to engage in risky behaviors. This is consistent with a 
National Institute of Mental Health study indicating that the 
adolescents most likely to engage in delinquency and violence are those 
who spend the most time with peers doing the same thing.
    But parents are under enormous stress. They're working longer hours 
with less job security. They have less time to spend with their 
children. Many cannot afford the child care they need to ensure that 
their children are safe while they are at work. And there are fewer 
families that feel connected to strong, supportive communities and 
extended families.
    In this regard, we see great promise in parenting services that 
help parents to learn appropriate developmental expectations for their 
children at different ages, establish positive relationships with their 
children and learn non-violent forms of discipline. Programs such as 
Head Start, the Community-Based Family Resource and Support Grant, and 
the Promoting Safe and Stable Families program, all support community-
based efforts to help adults strengthen their parenting skills.
                               conclusion
    Mr. Chairman, we know that integrated, positive youth development 
is far more effective than a focus on preventing a single problem 
behavior when working with young people. Any successful strategy needs 
to include the long-term commitment of concerned adults beginning at 
the birth of the child and lasting throughout the child's development 
to adulthood. Programs in schools, communities, religious institutions, 
or health-based organizations that foster the presence of caring, 
committed adults in the lives of children have been shown to be of 
critical value. All sectors of society must work together to build a 
caring community. Our children deserve this.
    The concern that you and Senator Harkin and the members of this 
Subcommittee have demonstrated will help us to develop more effective 
strategies for promoting peaceful communities and communicating a 
powerful message of hope and good health. Thank you for the opportunity 
to share with you the public health perspective on youth violence and 
to highlight some of the initiatives underway in the Department of 
Health and Human Services to promote positive development and prevent 
violence in the lives of our nation's young people. We look forward to 
working with you and your colleagues on a bipartisan basis to build on 
these efforts.
STATEMENT OF RICHARD W. RILEY, SECRETARY OF EDUCATION, 
            OFFICE OF THE SECRETARY, DEPARTMENT OF 
            EDUCATION
    Senator Specter. We turn now to Secretary of Education 
Richard Riley, who has had a distinguished career in the 
executive and legislative branches. He is a former governor, a 
former State Senator, a former State representative. Secretary 
Riley is a graduate of Furman and the holder of a law degree 
from the University of South Carolina.
    The Clinton administration has benefitted by Secretary 
Riley's tenure since the administration began. He was sworn in 
in January of 1993, as was Secretary Shalala. I think that is 
quite a tribute to the administration and to you two 
Secretaries. Because that continuity is very helpful and very 
important.
    Secretary Riley, I thank you for joining us, and the floor 
is yours.
    Secretary Riley. Thank you, Mr. Chairman.
    The criteria for the order of speakers, if you had based it 
on the age of the people instead of the Departments, I would 
have fared better. [Laughter.]
    I thank you and the other members of the committee for 
giving us this chance to appear. It is great to be with my 
colleagues. Like my colleagues, I appreciate your strong 
leadership in crafting this Youth Violence Prevention 
Initiative as a point of departure, a great positive point of 
discussion. I appreciate your determination, and that of the 
other members of this subcommittee, to have adequate funding 
for these three Departments and the Department of Justice.

                 nation's schools remain basically safe

    Let me make just a couple of comments. First, despite the 
terrible tragedies of the last 2 years, our Nation's schools 
remain basically very safe. Parents have every right to be 
concerned after these terrible incidents. We can always do more 
to make them safer.
    Having said that, let us also remember that while we send 
53 million young people off to school every day, less than 1 
percent of the homicides among youth aged 12 to 19 occur in and 
near schools, though they are there most of the day. I make 
this point because there is a tendency to become so focused on 
these tragic instances that we can give parents really a 
distorted impression about the level of violence in our 
schools.

              media coverage of youth violence in schools

    When the media replays the same graphic image over and over 
and over again, it can really give people kind of a false 
impression. Yes, we have to do more to reduce youth violence. 
We all agree with that. But let us be sensitive to the force of 
fear, the power of fear to distort all that our schools are 
achieving, and to acknowledge the good things, the safe things 
that are happening there generally.
    Second, all of these terrible tragedies have been defined 
by two common factors: disconnected boys with guns. We have a 
culture of violence in this country that is deeper I think than 
any of us realize. I find it astonishing that some schools 
allow gun shows to take place on their school property. I think 
that needs to change. We need to keep sending a very clear 
signal that unsupervised gun use and school children simply do 
not mix.

            need to overcome sense of disconnection in youth

    We also have to do a much better job helping young people 
overcome their sense of disconnection, Senator, that both you 
and Senator Murray have talked about. When we build high 
schools the size of shopping malls, we simply lose some of our 
young people in the crowd.

             youth concerns as evidenced in the shell poll

    I released this poll, which I mentioned previously, 
Senator, a few weeks ago, the Shell poll, which interviewed 
1,000 high school students. The students told us several 
things, I think, that are pertinent. While most of our young 
people are optimistic about the future and have good values, 
they have some real worries. They are worried about drug and 
alcohol use among their friends. They are looking for help in 
learning how to respect one another. They want more adults 
helping them to deal with their emotions. They do not like big 
impersonal schools. They want smaller classes and smaller 
schools.

              need to end the sense of youth disconnection

    Now, all of these factors lead me back to the idea that 
young people are looking for these connections that we are 
talking about. If we want our schools to be safer, we ought to 
have the goal of making sure that every single child in 
America, every student, feels that there is at least one caring 
adult out there for them. To accomplish that, it is going to 
take help from the entire community--community-based 
organizations, other groups--everybody is going to have to be 
concerned. But I think that is a good goal for us to look at.

        education programs extending contact and time for youth

    I am pleased the chairman's encouraging support is out 
there for our 21st Century Learning Centers, our after-school 
and summer school programs, our middle school coordinators 
effort, the Safe Schools/Healthy Students Initiative, increased 
support for more school-based mental health counselors.

                     21st century learning centers

    I urge the chairman to be even more encouraging on his 
support for the 21st Century Learning Centers. The President's 
request was for $600 million. You have a very significant 
increase in your proposal, $400 million. There have been over 
$1 billion of applications for those programs. We were able to 
fund only $200 million.

                   safe and drug-free schools program

    We continue to work hard to improve the Safe and Drug-Free 
Schools Program. We want to target our funding, make it more 
research based, and get recipients of funds to put in place 
real performance indicators.

           necessary role of funding in supporting solutions

    All of us at the table have been working closely together. 
Eric mentioned the early warning guide and the other efforts 
for these agencies to work together, but we will be hard put if 
this committee's budget allocation remains billions below the 
President's fiscal year 2000 budget request.
    If this committee supports holding spending at the current 
level, we will have little opportunity to help the many schools 
and many communities that are looking for support when it comes 
to youth violence prevention initiatives.

             congressional leadership in finding solutions

    We appreciate, Mr. Chairman and others, your interest in 
this major problem, and that you are trying to deal with it.

                           Prepared statement

    Finally, Mr. Chairman, as always, I am very pleased by your 
commitment to advancing education and by your leadership on 
this important issue. I know you have gone out of your way in 
the last few months to meet with experts around the country and 
with Federal agency heads, with the goal of crafting this 
initiative. We appreciate your leadership very much.
    Thank you.
    Senator Specter. Thank you very much, Secretary Riley.
    [The statement follows:]
              Prepared Statement of Hon. Richard W. Riley
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to appear before you this morning to talk about the issue 
of youth violence. This is a topic of great importance to all of us at 
the Department of Education as well as to educators throughout the 
country. Tragic events in places such as Conyers, Georgia; Littleton, 
Colorado; Springfield, Oregon; Paducah, Kentucky; Pearl, Mississippi; 
and Jonesboro, Arkansas have driven home the fact that horrible acts of 
violence can strike anywhere, even in communities and school districts 
that are generally safe.
    We recognize the devastating effects that violence can have on 
families, communities, and schools. Children cannot learn and teachers 
cannot teach if they are victimized or threatened. If students are to 
reach the high academic standards the States have set for them, we must 
find ways to create safe, disciplined, and drug-free learning 
environments that support academic achievement.
    This morning I'd like to talk with you about: (1) some of the 
things we have learned as we have worked with parents, students, 
teachers, and community members; (2) the actions we have taken to 
ensure that all students and teachers go to schools that are safe, 
disciplined, and drug-free; and (3) additional actions we are planning 
to take.
    However, before proceeding I want to urge the Subcommittee to give 
very careful consideration to the President's fiscal year 2000 request 
for education programs. We believe that the initiatives identified in 
that proposal are critically important in creating safe, disciplined, 
and drug-free learning environments and preventing youth violence. The 
existing proposal includes funding for many initiatives, including Safe 
and Drug-Free Schools, class size reduction, 21st Century Community 
Learning Centers, and Reading Excellence. Funds for these and other 
important programs are necessary to improve the quality of education in 
the country and to ensure that students and teachers are safe. Funding 
of the programs included in our fiscal year 2000 request, many of which 
affect the school environment, is our highest priority.
    In particular, I want to encourage the Subcommittee to consider 
providing the full $600 million for the 21st Century Community Schools 
program requested in the President's fiscal year 2000 budget. This 
program has generated tremendous interest from schools and communities 
across the country, and combines an important violence prevention 
strategy--increased adult supervision of adolescents--with an emphasis 
on improving academic skills.
                            lessons learned
    We have been intensively involved in helping schools create safe, 
disciplined, and drug-free learning environments for many years. Over 
that time we have learned some important things about our schools and 
their safety. For example, we know that:
  --Despite recent, high-profile cases such as those in Jefferson 
        County, Colorado and Springfield, Oregon, schools remain safe 
        places. Less than one percent of homicides among youth aged 12-
        19 occur in schools and 90 percent of schools haven't reported 
        any serious violent crime. I have included a copy of the Annual 
        Report on School Safety with my remarks for the record.
  --There are many examples of schools that are doing a great job of 
        ensuring that all students and faculty work and learn in an 
        atmosphere that is safe, disciplined, and drug-free. We also 
        know that there are numerous programs that, if implemented 
        appropriately, can be very effective in reducing and preventing 
        school crime and violence.
  --There is a direct link between school reform issues and safe 
        schools. Safe schools are schools where teachers are adequately 
        trained; where the ratio between teachers and students is 
        sufficient to ensure that no children ``fall between the 
        cracks''; where the instructional program is strong; where 
        teachers and students treat each other with respect and 
        civility; and where buildings are not over crowded or decaying.
  --The most effective way to address school crime and violence is 
        through a community-wide approach. While sound discipline 
        policies and effective violence prevention programming are 
        important elements in any effort to create safe, disciplined, 
        and drug-free learning environments, we must also work to 
        create access to adequate mental health resources; after-school 
        programming; quality child care; early childhood services; and 
        family strengthening programs. These services, while necessary 
        for ensuring that our children and youth remain safe and 
        healthy, do not necessarily need to be provided for by schools; 
        however, linkages with medical and public health professionals, 
        community groups and others that have responsibility for 
        providing these services are necessary.
  --Almost every school in the country is doing something to help 
        create environments that are conducive to teaching and 
        learning. For example, every school district in the country has 
        policies prohibiting the possession of firearms, and almost 
        every school has policies regarding the use and possession of 
        illicit drugs. Further, almost every school district in the 
        country has some sort of programming related to the prevention 
        of drug use or violent behavior. Unfortunately, not all the 
        programs being implemented are based upon sound research and 
        many may have only limited effectiveness.
  --Schools have not always been prepared to deal with issues related 
        to crime, especially serious violent crime. While a growing 
        number of schools have ``crisis plans'' or ``school safety 
        plans'', many still do not.
  --Schools are not always prepared to deal with the aftereffects of a 
        serious crime or crisis. Experience with recent shootings in 
        Springfield, Oregon, and Jefferson County, Colorado has taught 
        us that there are significant psychological and emotional 
        consequences of serious and violent crime and that these issues 
        have to be dealt with if teaching and learning are to resume.
  --There are ways to identify students who are experiencing trouble 
        and the earlier we can provide these students with help the 
        more likely it is that we will be able to help them resolve 
        their problems. Unfortunately, in many school systems and 
        communities resources are simply inadequate to support students 
        identified with mental health problems.
                     violence prevention activities
    As you know, the Department of Education has been involved in a 
variety of activities and programs designed to ensure that every child 
has the opportunity to go to a school and every teacher has the 
opportunity to teach in a school without being threatened, attacked, 
bullied, robbed, or forced to witness the use or exchange of drugs. We 
are not alone in these efforts. Working with us every step of the way 
are our colleagues within the Department of Justice (DOJ), the 
Department of Health and Human Services (HHS), the Department of Labor 
(DOL), and the Office of National Drug Control Policy (ONDCP). Our work 
with these agencies reflects a partnership approach to creating safe 
environments--an approach that is necessary in every community in this 
country so that educators, law enforcement personnel, mental health and 
public health providers, youth-serving organizations, businesses, 
churches, parents, and youth themselves, come together to craft 
workable solutions. Success in creating safe schools is contingent upon 
our ability to forge linkages at all levels of government, to share 
resources and ideas and work together in a community, for our children 
and youth.
    Generally, ED activities designed to reduce violence in our schools 
are focused on a limited number of strategic goals. We work to 
identify, disseminate information about, and support effective, 
research-based violence prevention strategies. We also seek to improve 
the quality of data available to the public about the issue of school 
violence. And finally, we want to encourage communities and 
neighborhoods to bring resources to bear in a comprehensive way to 
address the issue of school violence.
    Our Safe Schools, Healthy Students initiative, which we are 
implementing jointly with agencies from the Departments of Justice and 
Health and Human Services, emphasizes all of these strategic 
priorities. The initiative is designed to provide students, schools, 
and their communities with enhanced comprehensive educational, mental 
health, social service, law enforcement, and, as appropriate, juvenile 
justice system services that promote healthy childhood development and 
prevent violence and alcohol and other drug abuse. As part of the 
initiative, applicants develop a single application for funds to 
support activities that together form a comprehensive, community-wide 
approach to promoting healthy childhood development and preventing 
violent behavior among youth. Funds from the three Departments to 
provide support for these comprehensive activities. In the future, we 
hope to work more closely with the Department of Labor as an additional 
partner in this initiative.
    The initiative requires that applicants use objective data to 
demonstrate the nature and magnitude of the problems to be addressed by 
the grants. Applicants must also establish performance-based goals for 
their program and evaluation activities that measure progress toward 
goals. Safe Schools/Healthy Students applicants must also demonstrate 
the existence of effective community partnerships, and use of 
activities that have a solid base of research demonstrating their 
effectiveness.
    We are also implementing a number of other important youth violence 
prevention initiatives, including:
  --In conjunction with the Departments of Justice and Health and Human 
        Services, we developed and disseminated the ``Early Warning 
        Guide'' to schools across the country. The guide provides 
        information to teachers, school personnel, and students about 
        the warning signs that help identify students who need help and 
        support to avoid choices that can harm them and their 
        classmates. We are following up The Early Warning Guide this 
        fall with a new ``took kit'' that will provide additional 
        resources to help school personnel recognize and assist 
        troubled students.
  --We established an expert panel to identify exemplary and promising 
        school-based drug and violence prevention programs, as well as 
        a recognition program, designed to identify schools that are 
        implementing research-based drug and violence prevention 
        programs in comprehensive community-wide contexts.
  --We are engaged in a number of activities designed to improve the 
        nature, quality, and accessibility of data about school 
        violence to school personnel and the public. For example, in 
        conjunction with the Department of Justice, we developed and 
        released the first Annual Report on School Safety released in 
        1998. This document summarizes data about important indicators 
        concerning school safety, and also includes information about 
        research-based strategies. The second Annual Report is 
        scheduled for release in October. We have also provided grants 
        to States to help them develop or improve State-level data 
        collection activities related to youth drug use and violence 
        and, in conjunction with the National Center for Education 
        Statistics, developed an agenda for more regular collection of 
        information about school violence. And, in partnership with the 
        Centers for Disease Control, we are studying school-associated 
        violent deaths for the past several school years to improve our 
        understanding of the circumstances surrounding those deaths.
  --We recently awarded grants to support the hiring of school safety 
        and drug prevention coordinators at middle schools around the 
        country with the most serious drug and violence prevention 
        problems. These coordinators will help middle schools assess 
        the nature and extent of their drug and violence prevention 
        problem, select and implement research-based prevention 
        strategies, work with community-based entities to create safe, 
        disciplined, and drug-free learning environments, and evaluate 
        progress toward reducing drug use and violence. We will also be 
        providing training to each of the coordinators hired as part of 
        this initiative to ensure that they have accurate, up-to-date 
        information about violence and drug prevention.
  --We have established ``Principles of Effectiveness'' to govern the 
        Safe and Drug-Free Schools and Communities Act (SDFSCA) State 
        Grants program. These principles require local school districts 
        and other recipients of SDFSCA funds to use objective data to 
        assess their drug and violence problem; establish measurable 
        goals for their prevention programming; implement effective, 
        research-based programs; and evaluate their progress toward 
        preventing school violence and student drug use.
    I have included a more detailed list of current initiatives with my 
statement for the record.
                              future plans
    While we plan to continue many of our existing initiatives, we also 
look forward to improving the Safe and Drug-Free Schools program to 
ensure that school districts develop more comprehensive and effective 
responses to school safety, and to providing support in other important 
areas.
    The President transmitted to Congress has plans for reauthorization 
of the Elementary and Secondary Schools Act (ESEA), including Title IV, 
the Safe and Drug-Free Schools and Communities Act (SDFSCA) in the 
spring. The proposal for the SDFSCA contains several changes, which if 
adopted, will help strengthen the program. Proposed changes include:
  --Emphasizing the implementation of high-quality, research based 
        programs that are consistent with the ``Principles of 
        Effectiveness.''
  --Targeting funds to districts with high need by awarding funds to 
        school districts that have significant need and are able to 
        develop high quality programming.
  --Strengthening program accountability by requiring State and local 
        recipients of SDFSCA funds to adopt performance indicators for 
        their programs, and to develop comprehensive safe schools 
        plans.
    The reauthorized program would also change the way we deal with 
students who bring firearms to school. While we believe that students 
who bring firearms to schools must be removed from the regular 
classroom, we continue to be concerned about what happens to those 
troubled students who are expelled from school. Our reauthorization 
proposal requires that students who bring firearms to school be 
evaluated to determine if they pose an imminent threat of harm to 
themselves or others and need appropriate mental health services before 
they can be readmitted to schools.
    In order to keep those students and others who are suspended or 
expelled for serious violations of student conduct codes connected to 
school, our reauthorization proposal also requires that States adopt a 
discipline policy that requires local educational agencies to adopt 
sound discipline policies including providing appropriate supervision, 
counseling, and educational services to suspended or expelled students. 
We also plan to award grants to local educational agencies to help them 
develop and implement alternative schools or placements. This is one 
area where we expect that collaboration with the Departments of Labor 
and Justice on their efforts to place out-of-school youth and youth 
offenders in alternative learning environments will be particularly 
useful.
    Another provision in the reauthorization proposal would help local 
educational agencies (LEAs) respond to violent or traumatic crises by 
establishing the ``School Emergency Response to Violence (SERV).'' This 
program would authorize the Secretary to provide rapid assistance to 
school districts that have experienced violent or traumatic crises. 
Assistance would take the form of both short-term and long-term mental 
health crisis counseling, added security services, and training. I 
would also like to note that we have requested funds ($12 million) for 
this initiative in the President's fiscal year 2000 budget request. I 
hope you give it serious consideration.
    Finally, I would like to note some of the other provisions of the 
ESEA proposal would address issues related to school safety and use 
violence. These include a requirement that data concerning school 
safety be included in annual state report cards and that States provide 
information to ED on school-associated violent deaths. Other proposals, 
including the high school reform initiative, are likely to impact 
school safety concerns by reshaping the learning environments in our 
nation's high schools to create smaller, more personal settings.
    We also look forward to expanding related activities implemented 
jointly with other agencies. In conjunction with the Department of 
Justice, we plan to award grants to support mentoring programs. And we 
will be joining with the Department of Justice in disseminating a 
publication that provides technical assistance to schools about 
removing weapons from school settings.
       subcommittee's draft youth violence prevention initiative
    I applaud the Subcommittee for its interest in this very important 
topic, and look forward to working with the members of the Subcommittee 
to provide our schools and communities with the resources they need to 
create safe, disciplined, and drug-free learning environments where 
students and teachers can focus on achieving academic success.
    As you know, your interest in this important topic is shared by the 
Administration. The Administration is considering ways for agencies to 
come together and improve the Federal response to youth violence, and 
we are looking to elevate this critical function to the White House. I 
think this mechanism would be an excellent way to build on the 
significant progress we have made in collaboration on this issue 
throughout the Executive Branch, and I look forward to participating 
fully. Given your interest and leadership on issues of youth violence, 
I hope that you and other interested members of Congress will provide 
us with your input and suggestions as we proceed.
    I appreciate your including me in your hearing this morning, and 
look forward to working with members of the Subcommittee on this and 
other important education issues. I will be happy to answer any 
questions that you may have.
 Additional Examples of Department of Education Initiatives Supporting 
                Safe and Drug-Free Learning Environments
                              publications
MTV Fight for Your Rights: Take a Stand Against Violence
    Interactive CD-ROM and guide for adolescents on violence prevention 
and conflict resolution.
Early Warning, Timely Response: Tool Kit
    Practical information for schools on how to develop policies and 
implement effective violence intervention programs.
Revised National Association of Attorneys General (NAAG) Guide on 
        Protecting Students from Hate Crime and Harassment
    Revised to reflect Supreme Court decision in Davis v. Monroe County 
Board of Education.
Publication on relevant laws/court precedents related to harassment
    Companion piece to the NAAG guide. Will provide a brief overview of 
relevant civil rights laws and court precedents and explain how they 
impact school policies.
                     training/technical assistance
Focus Group Meeting with Secretary Riley on Youth Suicide Prevention
    To educate on the extent and nature, as well as risk factors, of 
youth suicide and suicide ideation and to begin a dialogue on the role 
of the Federal Government, and specifically the U.S. Department of 
Education, in suicide prevention efforts.
Conflict Resolution Training (ED, OJJDP)
    To provide schools and community groups with training and technical 
assistance on how to develop and implement effective conflict 
resolution programs.
Hate Crimes (ED, OJJDP)
    To support training and technical assistance to schools and 
community groups interested in developing and implementing hate crime 
prevention programs.
National Resource Center for Safe Schools (ED, OJJDP)
    The National Resource Center for Safe Schools provides training and 
technical assistance to schools on how to develop and implement safe 
school strategies.
                            teleconferences
White House Conference on Mental Health
Safe Schools, Safe Students: What Parents Can Do
    Special discussion for parents about keeping their children safe. 
Produced with support from the Pfizer Foundation.
Satellite Town Hall Meetings
    Series of meetings will emphasize school safety theme.
Safe and Effective Schools for All Students and All Communities: What 
        Works (ED, HHS, DOJ)
    Teleconference for SEAs and LEAs on how to foster collaboration.
    Building Bridges: Strengthening Schools and Communities.--
Partnerships for Preventing Violence, Harvard School of Public Health, 
ED.
NEA/EchoStar/ED/HHS/DOJ Teleconference Series
    Series of three events, first will provide training consistent with 
``Toolkit'' publication.
                          conferences/meetings
Educational Implications for Children Exposed to Prenatal Drug Use (ED)
    An interactive workshop session for local superintendents and 
federal staff on education policy and risk factors and interventions 
for children exposed to prenatal drug use.
Education and Leadership for Safe Schools Conference (OJJDP)
    The 14th Annual Conflict Resolution Education Network (CREnet) 
Conference will focus on supportive teaching and learning environments, 
and teaching conflict resolution and leadership skills.
National Youth Gang Symposium (OJJDP)
    Addresses practitioner's needs on gang-related programs geared 
toward school personnel, community organizations, law enforcement, 
researchers, and elected officials.
Weed and Seed National Conference (OJJDP)
    Conference will feature insights into effective community 
partnerships and interactive workshops focusing on community 
revitalization.
Safe and Effective Schools for All Students and All Communities: What 
        Works (ED, HHS, DOJ)
    Sponsored by 11 Federal Agencies across three Departments (U.S. 
Department of Education, U.S. Department of Health and Human Services, 
U.S. Department of Justice) and key national associations. Invitational 
working meeting focusing on the exchange of knowledge and strategies 
for establishing safe and effective schools. Six-person teams from 
every state will, with the assistance of facilitators, engage in 
analysis of state data, strategic planning, collaboration, and 
networking that emphasizes improving student behavior and discipline 
and preventing violence in schools.
School Security Officers Meeting (ED, COPS)
    Meeting of school security chiefs from large urban districts to 
discuss trends in the field, emerging issues, and information sharing.
IASA Conferences (ED)
    Three regional conferences regarding education priorities and 
initiatives, recent research and model programs, and funding 
opportunities.
                                 grants
Middle School Coordinators (ED)
    Hiring grants for LEAs to recruit, hire, and train middle school 
coordinators to assist schools with implementing and evaluating 
effective drug/violence prevention programs and strategies.
Safe Schools/Healthy Students (SDFS, OJJDP, SAMHSA, COPS)
    LEA grants to provide students, schools and communities with 
enhanced comprehensive educational, law enforcement, mental health, and 
juvenile justice services. Services and activities will focus on 
development of improved youth social skills and emotional resiliency to 
prevent violence and drug abuse.
Safe Start Demonstration Project and Evaluation (OJJDP)
    Cooperative agreements for communities that have formed strong 
collaborative relationships with key partners to prevent and address 
the impact that exposure to violence has on young children.
State and Local SDFS Formula Grants (ED)
    Formula grants to States to support research-based drug and 
violence prevention programming at the school and community level.
                                reports
Gun Free-Schools Act Implementation Report (ED)
    Data from the 1997-98 school year.
School-Associated Violent Deaths Survey Report (ED, CDC)
Youth Risk Behavior Surveillance Survey (CDC)
    Weapon carrying, drug use, etc. for students in alternative 
schools.
1999 Annual Report on School Safety (ED, DOJ)
    Will provide an overview of nature and scope of school crime, as 
well as model programs, profiles of successful Safe Schools/Healthy 
Students grantees.
                                 other
Improved Data Collection (SDFS, NCES)
    SDFS and NCES collaboration to regularly collect and analyze data 
related to school crime and violence.
Safe and Drug-Free School Recognition Program (ED)
    Identify schools that have effective drug and violence prevention 
programming.
Expert Panel on Safe, Disciplined and Drug-Free Schools (ED)
    The panel will review and examine drug and violence prevention 
programs. Programs recommended as ``promising'' or ``exemplary,'' based 
upon objective criteria, will be forwarded to the Secretary for 
recognition.
STATEMENT OF ERIC HOLDER, DEPUTY ATTORNEY GENERAL, 
            OFFICE OF THE DEPTUTY ATTORNEY GENERAL, 
            DEPARTMENT OF JUSTICE
    Senator Specter. We turn now to the Deputy Attorney 
General, Eric Holder, who has had a very distinguished career. 
He was educated at Columbia College and Columbia Law School. He 
served as an associate judge of the Superior Court of the 
District of Columbia. He was U.S. Attorney for the District, 
and now holds the number two position in the Department of 
Justice. We especially appreciated, General Holder, your 
joining us at the working session, and we look forward to your 
testimony.
    Mr. Holder. Thank you, Mr. Chairman.
    If I might be so bold, I was kind of sitting on the edge of 
my seat. I did not hear you discuss when the Department of 
Education was formed. I am not sure, I might have missed that.
    Senator Specter. I was wondering if anybody had noticed. 
[Laughter.]
    In 1979. Not only was it formed in 1979, it has withstood 
repeated attacks for its abolition, without my support. I have 
always been an irrelevant footnote, for which this body is 
famous. When I ran for President, I was the only respective 
candidate who wanted to keep the Department of Education. It 
did not sell too well, either.
    Mr. Holder, we will start your time again.
    Mr. Holder. I guess I am from the oldest Cabinet 
Department, but I am the lowest ranking person here. So this 
explains why I am where I am.
    Mr. Chairman, Senator Harkin, Senator Byrd, Senator Murray, 
it is my pleasure to discuss with you today the problem of 
youth violence. First, I want to thank you for including the 
Justice Department in the development of your youth violence 
plan. Your work has bridged agencies, disciplines, 
perspectives, and appropriation streams to reach consensus on 
this issue of deep concern to all of us.
    Youth violence is a justice issue. It is a school issue. It 
is a social service issue. It is also a labor issue. Addressing 
it requires a team effort, one that cannot be done in 
isolation.
    I was pleased to participate in a series of youth violence 
meetings, chaired by Senator Specter, earlier this summer. I 
was also glad to see that you differentiated between me and the 
experts who were there.
    I also want to express the appreciation of the Justice 
Department to Chairman Specter, ranking member Harkin and other 
members of the subcommittee with whom we worked closely for 
your commitment to working with the Department to find 
solutions to the youth violence problem. I look forward to 
continuing to work with all of you in this important effort.

                             youth violence

    Now, we have heard a lot about youth violence in the news 
recently, and, to some extent, we have all looked to the start 
of this new school year as a new beginning, putting last year's 
tragedies behind us. No doubt we want this year to be 
different. It is tempting to want to start fresh, thinking that 
the problems have been solved, with metal detectors, student 
I.D.'s and uniformed security officers, and that the recent 
improvements in the juvenile arrest rates, particularly for 
violent offenses, are cause for celebration. But, to my mind, 
there is clearly more work that needs to be done. Delinquency 
is not just a crime issue, it is a public health issue--one 
that must be approached from a variety of directions to effect 
positive and lasting change. This makes our work both 
complicated and challenging.

        coordinating council on juvenile justice and delinquency

    The Department's activities to prevent and respond to these 
issues are centered in our Office of Juvenile Justice and 
Delinquency Prevention, what we call OJJDP. In addition to 
administering a variety of programs and initiatives to address 
juvenile delinquency, victimization and the problem of missing 
and exploited children, OJJDP staffs the Coordinating Council 
on Juvenile Justice and Delinquency Prevention. That is a 
statutorily-established body, chaired by the Attorney General. 
The Council coordinates all Federal juvenile delinquency 
prevention programs, all programs and activities that detain or 
care for unaccompanied juveniles, and all programs relating to 
missing and exploited children.
    The Council has spearheaded many projects that the field 
has positively received. In February, following the Council's 
suggestion, the administration announced the Safe Schools/
Healthy Students Initiative, a major new collaboration by the 
Departments of Education, HHS, and Justice. Through a 
consolidated application process, this program provides 
students with enhanced mental health, law enforcement and 
juvenile justice system services to reduce drug use and violent 
behavior, and also to ensure the creation of safe, disciplined 
and drug-free schools. Importantly, the agencies are 
collaborating on both funding and oversight in order to ensure 
continued cooperative management of this unprecedented multi-
agency initiative.
    We are proud of the Coordinating Council's accomplishments, 
and believe it is critical to a comprehensive, streamlined and 
coordinated Federal juvenile justice program. Let me be very 
honest with you. We are disappointed that the recently-passed 
juvenile justice reauthorization bills now in conference 
committee do not continue the Council. We urge you to retain 
the Council as a statutorily established entity. I believe it 
has served us well for the last 25 years, and is a very sound 
investment.
    Effective delinquency prevention and control is built upon 
solid empirical research findings. In sum, the research shows 
that if you catch delinquency early and address the source of 
the problem, you are much less likely to be dealing with a 
crime, and possibly a violent criminal, later. Achieving this 
formula, however, requires a comprehensive, coordinated effort 
at critical times in a child's life with a range of services, 
supports and opportunities--what we call a continuum of care.

                    strategy for juvenile offenders

    To that end, OJJDP developed the Comprehensive Strategy for 
Serious Violent and Chronic Juvenile Offenders, which has, 
since 1993, served as the foundation for our programming. The 
strategy promotes a systematic approach to crime reduction that 
draws on the public health model, and includes strategies for 
prevention and intervention.
    Programs like OJJDP's ``Community Prevention Grants 
Program,'' the only Federal funding source solely dedicated to 
delinquency prevention, and the Nurse Home Visitation Program 
are just two of the programs that we support that are designed 
to prevent youth from starting down the pathway of delinquency.
    It is also critically important that the juvenile justice 
system hold youth accountable for their behavior, while 
providing appropriate rehabilitation services for youth who can 
benefit from them.
    I believe the impact of our activities is enhanced by our 
commitment to sharing information with the people who need it 
most. OJJDP funds the National Training and Technical 
Assistance Center, the Juvenile Justice Clearinghouse, and a 
Web site--visited over 90,000 times in 1998.
    I agree that youth violence is a public health problem that 
requires a coordinated interagency approach. Continuing to pool 
the talents and the resources of Justice with those of Labor, 
Health and Human Services, and Education, as well as other 
interested parties, will permit us to expand our endeavors to 
more communities and to ultimately help more juveniles at risk 
of delinquency and victimization. For those youth who have 
already entered the system, we can provide more effective 
treatment and interventions to turn their lives around. Only 
through coordination at the Federal level can we make the most 
efficient use of our increasingly limited resources. It is 
critical, therefore, that your initiative complements, supports 
and coordinates with those programs already in place, and 
builds on what the research tells us works.

                           prepared statement

    I appreciate your commitment to this issue and look forward 
to strengthened partnership between the Federal agencies that 
share the mission of improving the lives of this Nation's 
youth. I am confident that we can work together to build on 
what we have accomplished so far, and expand the possibilities 
about what we can achieve in the future.
    Thank you.
    Senator Specter. Thank you very much, General Holder.
    [The statement follows:]
             Prepared Statement of Hon. Eric H. Holder, Jr.
    Mr. Chairman and Members of the Subcommittee: It is my pleasure to 
be here today to discuss the problem of youth violence and how the 
Department of Justice is working to address the issue through a 
comprehensive, collaborative approach. I will begin by briefly 
describing the overall trends we are observing in recent rates of 
juvenile crime and victimization. Then, I will talk about several of 
the programs the Department is sponsoring to combat juvenile violence 
and delinquency and to improve the lives of our Nation's youth, 
especially those programs that focus on prevention and early 
intervention. I'll close by commenting on the youth violence prevention 
initiative currently under consideration by this subcommittee, linking 
our current work with that which is proposed.
    Before I begin, I want to express the appreciation of the 
Department of Justice to Chairman Specter, Ranking Member Harkin, and 
the other Members of the Subcommittee with whom we work closely, 
particularly Senators Stevens, Byrd, Gregg, and Hollings, for your 
commitment to working with the Department to find solutions to the 
problem of youth violence. I look forward to continuing to work with 
all of you in this important effort.
                    trends in juvenile arrest rates
    Youth crime remains a serious problem for this country. However, 
recent data show that we are moving in the right direction. After 
steady increases from 1989 to 1994, the juvenile arrest rate for Part I 
violent crimes has dropped for three straight years, falling 23 percent 
from 1994 to 1997. We have also seen significant declines in every type 
of violent crime index offense, including a 43 percent drop in the 
juvenile murder arrest rate from 1993 to 1997. It is important to note 
that in 1997, as has been true for the previous twenty years, less than 
one-half of one percent of juveniles age 10 to 17 were arrested for a 
violent crime.
    Although juvenile arrest rates are falling, we cannot rest because 
the rate is still 23 percent above the 1988 level. Arrest rates for 
many violent and nonviolent offenses remain at unacceptably high 
levels. Drug abuse and weapons offenses arrests, for example, are up 
125 percent and 44 percent, respectively. Also the trends for female 
juvenile violent crime arrest rates, which have risen faster and fallen 
slower than for males, are cause for concern, as are the 
disproportionately high arrest rates for minorities.
    We are also concerned about the alarming rates of juvenile 
victimization. According to the National Crime Victimization Survey, 
juveniles were twice as likely as adults to be victims of serious 
violent crime and three times as likely to be victims of sexual assault 
in 1995 and 1996. Many of these children were victimized by people they 
trusted the most--their caretakers. The number of children identified 
as abused or neglected almost doubled between 1986 and 1993. In 1993, 
92 percent of those victims were victimized by a parent.
    In addition to being victimized by crime and child abuse and 
neglect, many children struggle with a host of other problems which put 
them at risk of becoming delinquent. The social transformation of inner 
cities in recent decades has resulted in the concentration of the most 
disadvantaged segments of society, particularly in urban African-
American communities. Recent research indicates that the 
disproportionate level of violence many urban areas are experiencing 
stems from a combination of macro risk factors, such as poverty and 
joblessness, and individual level risk factors, particularly family 
disruption. The studies have also taught us that many of the children 
about whom we have the greatest concern have multiple risk factors in 
multiple domains (for example, family, school, community, peers) in 
their lives. This makes our work even more complicated and challenging.
       the office of juvenile justice and delinquency prevention
    The Department of Justice's activities to prevent and respond 
appropriately to youth crime, violence, and victimization are centered 
in the Office of Juvenile Justice and Delinquency Prevention (OJJDP). 
OJJDP is a component of the Department's Office of Justice Programs and 
is the Federal agency responsible for addressing the issues of juvenile 
delinquency, victimization, and the problem of missing and exploited 
children. OJJDP achieves its mission by providing national leadership, 
coordination, and resources to help States and local communities 
develop, implement, and support programs tailored to their specific 
problems and needs. OJJDP also funds research and demonstration 
programs; provides technical assistance and training to help 
communities and practitioners implement promising and effective 
programs and practices; produces and distributes publications and other 
materials that contain the most up-to-date juvenile justice-related 
information available; and provides funds to States to help improve 
their juvenile justice systems.
  coordinating council on juvenile justice and delinquency prevention
    In addition, OJJDP is responsible for staffing the Coordinating 
Council on Juvenile Justice and Delinquency Prevention (Coordinating 
Council), an independent body within the Executive Branch of the 
Federal Government established by the Juvenile Justice and Delinquency 
Prevention Act of 1974. The Council's primary functions are to 
coordinate all Federal juvenile delinquency prevention programs, all 
programs and activities that detain or care for unaccompanied 
juveniles, and all programs relating to missing and exploited children.
    Since 1992, the Coordinating Council has been chaired by the 
Attorney General and includes four other cabinet secretaries, the 
Director of the Office of National Drug Control Policy (ONDCP), and 
three sub-Cabinet officials. Nine non-Federal juvenile justice 
practitioners appointed by the President, the President of the Senate, 
and the Speaker of the House also sit on the Council.
    In 1996, the Coordinating Council published Combating Violence and 
Delinquency: The National Juvenile Justice Action Plan (Action Plan), 
an eight-point statement of objectives and corresponding strategies 
designed to strengthen State and local initiatives to address and 
reduce the impact of juvenile violence and delinquency. These 
objectives are as follows:
  --provide immediate intervention and appropriate sanctions and 
        treatment for delinquent juveniles;
  --prosecute certain serious, violent, and chronic juvenile offenders 
        in criminal court;
  --reduce youth involvement with guns, drugs, and gangs;
  --provide opportunities for children and youth;
  --break the cycle of violence by addressing youth victimization, 
        abuse, and neglect;
  --strengthen and mobilize communities around these issues;
  --support the development of innovative approaches to research and 
        evaluation; and
  --implement an aggressive public outreach and education campaign on 
        effective strategies to combat juvenile violence.
    The Action Plan is regularly used by Federal agencies and States in 
shaping their programmatic responses to juvenile delinquency and 
violence.
    In addition, in an ambitious effort to coordinate one of the 
Federal government's most valuable contributions to community safety--
research about what works--the Council facilitated joint funding by 
several agencies for ``Early Alliance,'' a research study designed to 
promote positive development and reduce risk for adverse outcomes in 
children attending schools located in at-risk neighborhoods. Other 
interdepartmental collaborations spurred by the Coordinating Council 
are addressing such critical efforts as nurse home visitation programs; 
career enrichment for inner city youth; mental health needs of at-risk 
youth; treatment for children with learning disabilities; drug 
awareness, education, and prevention; a national replication of the 
Child Development--Community Policing program; the multiple needs of 
families with substance abuse problems; and international child 
abduction. I will describe many of these programs later in my testimony 
today.
    In February 1999, following the approach advocated by the Council, 
the Administration announced a major new collaboration by the 
Departments of Education (through its Safe and Drug-Free Schools 
Program), Health and Human Services (through its Center for Mental 
Health Services), and Justice (through OJJDP and the COPS Office) to 
commit at least $100 million dollars to the Safe Schools/Healthy 
Students Initiative. Accessed through a consolidated application 
process, this grant program will provide students with enhanced 
comprehensive mental health, law enforcement, and, as appropriate, 
juvenile justice system services designed to reduce drug use and 
violent behavior and to ensure the creation of safe, disciplined, and 
drug-free schools. Awards for up to three years are being made to 
successful applicants, with grants up to $3 million annually for urban 
school districts, $2 million for suburban districts, and $1 million for 
rural districts and tribal schools designated as local education 
agencies. Importantly, the agencies are collaborating on both funding 
and oversight, in order to ensure continued cooperative management of 
this unprecedented multi-agency initiative, which will be expanded to 
include the Department of Labor.
    We are proud of the Coordinating Council's accomplishments and 
believe its work is critical to creating and implementing a 
comprehensive, streamlined, and coordinated Federal juvenile justice 
program under the Attorney General's leadership. We were, therefore, 
disappointed to learn that the two juvenile justice reauthorization 
bills recently passed by the Senate and the House and now in conference 
committee, S. 254 and H.R. 1501, do not provide for a Coordinating 
Council. We were surprised by this omission, given the abundance of new 
funding streams, initiatives, and programs that the two bills propose. 
As conference proceeds on the bills and they return to the Senate and 
House floors for a vote, we urge you to retain the Council as a 
statutorily established entity. The Coordinating Council has served us 
well for the last twenty-five years and, at a cost of $200,000 
annually, we believe its continuation is a sound investment. We are 
confident that, if reauthorized, the Council will continue to play an 
essential role in the effective coordination of a broad-based and 
comprehensive Federal juvenile justice strategy.
                                research
    The foundation of effective delinquency prevention and control 
practice is built upon solid empirical research findings. To that end, 
OJJDP collaborates with a number of other Federal agencies to co-fund 
and oversee research related to juvenile delinquency and victimization. 
This enables the office to use its funds most effectively and to ensure 
that efforts are not duplicated across agencies. For example, OJJDP is 
currently working on interagency efforts with the Office of National 
Drug Control Policy and the U.S. Departments of Education, Commerce 
(Bureau of the Census), Labor, and Health and Human Services 
(Administration for Children and Families, National Institute of Mental 
Health, National Institute of Child Health and Human Development, 
National Institute on Drug Abuse, and Centers for Disease Control and 
Prevention). Partners within the Department of Justice include the 
National Institute of Justice, the Bureau of Justice Statistics, the 
Office for Victims of Crime, the Violence Against Women Office, the 
Executive Office for Weed and Seed, and the Office of Community 
Oriented Policing Services.
    The research projects we have supported have significantly 
contributed to what is known about juvenile crime and delinquency and 
the effective approaches to prevent it. Of note, OJJDP is funding three 
on-going research efforts that are providing ground-breaking knowledge 
and understanding about the developmental pathways to juvenile crime 
and delinquency and that are helping to bridge the gap between research 
and practice, by providing information that has direct implications for 
prevention programming. They are:
  --the Program of Research on the Causes and Correlates of 
        Delinquency.
  --the Study Group on Serious and Violent Juvenile Offenders (SVJ).
  --the Study Group on the Very Young Offender.
    Since 1986, the Program of Research on the Causes and Correlates of 
Juvenile Delinquency--which includes three coordinated, longitudinal 
research projects that constitute the largest shared-measurement 
approach ever achieved in delinquency research--has produced important 
findings about the factors that predict juvenile delinquency and the 
developmental pathways that juvenile offenders follow in becoming 
delinquents and career criminals. Among the many important and relevant 
findings of this program of research, we have learned that:
  --most chronic juvenile offenders start their criminal career prior 
        to age 12;
  --for some youth, involvement in serious violent behavior begins as 
        early as 10 years of age; and
  --early indicators of juvenile delinquency may be apparent among boys 
        as young as ages 1 to 5 years.
    These and other research findings have a number of important 
implications for delinquency prevention programming. Most importantly, 
we know that preventing delinquency requires early identification of 
the risk and protective factors that affect youth development. Because 
prevention efforts are more successful and cost-effective if the child 
has not already persistently performed a negative behavior or 
penetrated the more serious stages of a pathway to delinquency, we must 
identify and address the early warning signs of problem behaviors as 
they emerge, from birth to adulthood.
    For example, the researchers recommend that intervention programs 
begin as early as elementary school, since by the time many serious 
offenders reach high school their characters are well established and 
since older youth are resistant to changing their delinquent behaviors. 
Also, because delinquency progresses along a pathway from less serious 
to more serious forms of behavior, if we can identify a juvenile's 
position on a given pathway, we can attempt to short-circuit the 
progression. The focus should be on preventing young people from 
entering pathways in the first place. Failing this, we should intercept 
them from a negative pathway before the delinquent behavior becomes 
ingrained.
    The second example I mentioned of our commitment to the importance 
of research-based prevention programming is the Study Group on Serious 
and Violent Juvenile (SVJ) Offenders. This Study Group conducted 
ground-breaking research that links risk-factors for serious and 
violent juvenile crime to successful prevention and intervention 
programs. Its goal was to provide up-to-date, detailed information 
about:
  --the risk and protective factors for serous and violent juvenile 
        offending, and the
  --the effectiveness of SVJ crime prevention and intervention 
        strategies.
    The Study Group was made up of 29 leading juvenile justice and 
criminology scholars, including lead researchers from the Program of 
Research on the Causes and Correlates of Delinquency. Under the 
direction of Doctors Rolf Loeber and David Farrington, the research 
team spent nearly two years synthesizing 1decades of research on 
factors that affect SVJ crime rates and strategies that aim to prevent 
and/or reduce SVJ offending. The Study Group published its findings in 
a report that integrates the growing body of knowledge about risk and 
protective factors and the developmental pathways that lead to SVJ 
crime with knowledge about effective delinquency prevention and 
intervention programs.
    From its analysis of SVJ crime data, the Study Group concluded 
that:
  --serious and violent juvenile offenders are a distinct group of 
        offenders who tend to start early and continue late in their 
        offending, and who are responsible for a disproportionate 
        amount of all juvenile crime. By targeting effective early 
        delinquency prevention and intervention programs at this 
        population, communities can achieve dramatic reductions in 
        their overall juvenile crime rates.
  --many potential SVJ offenders below the age of 12 are not routinely 
        processed in juvenile court, and services in the community for 
        such offenders appear unnecessarily fragmented, leading to a 
        lack of public accountability for young potential SVJ 
        offenders. Communities must integrate their juvenile justice, 
        child welfare, mental health, and public health services in 
        order to identify, track, and redirect potential SVJ offenders. 
        Otherwise, these youth will continue to slip through the 
        cracks.
  --it is never to early to engage at-risk youth and their families in 
        delinquency prevention programs, and there are programs that 
        are effective in accomplishing these goals.
    An outgrowth of the Study Group on Serious and Violent Juvenile 
Offenders is the Study Group on the Very Young Offender. Its creation 
was prompted by concern about how well the juvenile justice system, in 
its current form, is suited to deal with the youngest serious violent 
juvenile offenders. Since a very large proportion of the eventual 
serious violent juvenile offenders start offending as children under 
age 10, the SVJ Study Group felt that a 1much closer look was needed at 
the very young serious offender. This second Study Group was 
constituted as a result. Specific areas being examined include whether 
such offending predicts future delinquent or criminal careers, how 
these juveniles are handled by various systems (juvenile justice, 
mental health, social services), and what the best methods are for 
preventing very young offending and persistence of offending. A report 
will be issued in 2000.
    Together, the ``Causes and Correlates'' and ``SVJ Study Group'' 
research projects have greatly increased our understanding of the 
factors associated with juvenile delinquency and violence, the 
characteristics and developmental pathways of serious and violent 
juvenile offenders, and effective and promising approaches for 
preventing and intervening in juvenile delinquency. In sum, the 
research shows that if you catch delinquency early and address the 
source of the problem, you are much less likely to be dealing with a 
crime--and possibly a violent criminal--later. Achieving this formula, 
however, requires a comprehensive coordinated effort at critical times 
in a child's life with a range of services, supports, and 
opportunities--a continuum of care. It means we must get the right 
service to the right youth at the right time.
 the comprehensive strategy for serious, violent, and chronic juvenile 
                               offenders
    Based on the research on what causes juvenile delinquency and what 
works to address it, OJJDP developed the Comprehensive Strategy for 
Serious, Violent, and Chronic Juvenile Offenders (the Comprehensive 
Strategy). Since 1993, the Comprehensive Strategy has served as the 
foundation for OJJDP's programming. Based on three decades of research 
in the fields of criminal justice, public health, and related 
disciplines, the strategy emphasizes six key principles:
  --Strengthening families.
  --Supporting core social institutions such as schools, religious 
        institutions, and community organizations.
  --Promoting prevention as the most cost-effective approach to 
        reducing delinquency.
  --Intervening immediately and effectively at the first sign of high-
        risk behaviors that can lead to delinquency.
  --Establishing a system of graduated sanctions designed to hold every 
        offender accountable while providing appropriate rehabilitation 
        services.
  --Identifying and controlling the small group of serious, violent, 
        and chronic juvenile offenders who account for the great 
        majority of serious and violent juvenile crime.
    The Comprehensive Strategy promotes a systematic approach to crime 
reduction that draws on the basic principles of the public health 
model. According to this model, we must first identify the root causes 
of juvenile crime and then implement a range of programs and services 
designed to prevent delinquency from occurring in the first place. 
However, when offending behavior does occur, it needs to be met with 
immediate interventions designed to deal with the causes while sending 
a message that law violating behavior will not be tolerated. This is 
the first tier in a system of graduated sanctions designed to respond 
appropriately to each offense and offender based on the risks the 
offender presents to the community and the needs of the offender. By 
coming at the problem of juvenile crime and delinquency from the 
perspectives of public safety, accountability, and care and concern for 
every child--through both prevention and delinquency control--we can 
achieve the greatest success in enhancing positive youth development 
and reducing juvenile crime.
    The Department is currently providing training and technical 
assistance to six States to implement the Comprehensive Strategy--
Florida, Iowa, Maryland, Ohio, Rhode Island, and Texas--with each site 
implementing the strategy in up to six jurisdictions. In addition, 
three pilot sites--Jacksonville (Duval County) and Fort Myers (Lee 
County), Florida and San Diego, California--are engaged in implementing 
the Comprehensive Strategy.
                          prevention programs
    As noted previously, the principles of the Comprehensive Strategy 
are the basis for many of our programmatic efforts. For example, we 
know that the best way to combat juvenile crime is to prevent it from 
happening. In 1992, Congress enacted a new Title V of the Juvenile 
Justice and Delinquency Prevention (JJDP) Act of 1974 and established 
the ``Incentive Grants for Local Delinquency Prevention Programs,'' 
more commonly known as the ``Community Prevention Grants Program.'' 
This program is the only Federal funding source solely dedicated to 
delinquency prevention. It uses a community-initiated planning process 
that leads to implementation funding for communities nationwide.
    The Community Prevention Grants Program is founded on a research-
based framework that focuses on reducing risks and enhancing protective 
factors to prevent youth from entering the juvenile justice system. It 
offers a funding incentive to encourage community leaders across 
disciplines, bridging public health and community justice approaches, 
to engage in multi-disciplinary assessments of risks and resources 
specific to their communities and to develop comprehensive and 
collaborative plans to prevent delinquency. Such programs maximize the 
chances of preventing juvenile crime, delinquency, and other related 
problems.
    To enhance the capacity of communities to formulate, implement, and 
evaluate comprehensive delinquency prevention plans, OJJDP sponsors 
orientation training for community leaders and training on developing 
risk and resource assessment while providing technical assistance at no 
cost to the recipients. Since 1994, OJJDP has provided training to 
nearly 6,000 community leaders.
    With training and technical assistance to develop local plans and 
seed funding to begin to implement plans over a 3-year period, 
communities are empowered to develop and implement delinquency 
prevention programs that best suit their unique needs and 
circumstances. In the past five years, 620 communities have received 
subgrants to mobilize resources and implement delinquency prevention 
programs. Over $40 million in matching funds have been leveraged from 
State and local resources.
    As a consequence of OJJDP's support, we are seeing some encouraging 
results. For example, the Clinton, Iowa Families and Schools Together 
program has produced a 37 percent decrease in school behavior problems 
in the first program year and a 31 percent decrease in the second year. 
The Clark County, Washington School Reentry program showed a 39 percent 
decline in gang involvement in participating students from 1995 to 
1998.
                 prevention--child protection programs
    In addition to the Community Prevention Grants Program, we support 
the Strengthening America's Families Project. Through this program, 
OJJDP provides free training and technical assistance to family 
services organizations and administrators to enable them to improve or 
establish effective family strengthening programs nationwide by 
disseminating information on 34 model family strengthening approaches, 
providing training and technical assistance on implementation barriers 
and issues, and helping communities to select and evaluate family 
programs. With OJJDP's commitment, dozens of these promising or 
effective models are being implemented in more than 150 communities. As 
a result, we have seen programs improve the quality of parents' 
relationships with their children and achieve significant and sustained 
reductions in delinquency and dependency.
    Recognizing that minority children are over represented in the 
dependency system, we have also provided funds to support the national 
Parents Anonymous organizations' comprehensive model of neighborhood-
based, shared leadership with families in low-income, high-crime areas. 
Through this effort, parents are given the opportunity to observe, 
practice, and learn skills in parenting, communication, conflict 
resolution, and other related life skills.
    Another family strengthening program we support, the Nurse Home 
Visitation Program, sends nurses to visit low-income, first-time 
mothers during their pregnancies and until their babies reach two years 
of age. The nurses help women improve their health, making it more 
likely that their children will be born free of neurological problems. 
Parents also learn to care for their children and to provide a positive 
home environment. Recent reports indicate that the Nurse Home 
Visitation program reduced State-verified cases of child abuse and 
neglect by 79 percent among mothers who were poor and unmarried and 
resulted in 44 percent fewer behavioral problems because of their use 
of drugs or alcohol. Adolescents whose mothers received nurse home 
visitation services over a decade earlier were 60 percent less likely 
than adolescents whose mothers had not received such services to have 
run away, 55 percent less likely to have been arrested, and 80 percent 
less likely to have been convicted of a crime.
    To help break the cycle of violence, OJJDP supports the Child 
Development--Community Policing program, developed in 1993 by Yale 
University in partnership with the New Haven Police Department. The 
program model trains police officers and mental health professionals to 
work in collaboration to provide direct intervention and treatment to 
youth who are victims or witnesses of violent crime. The partnership 
assists children, families, and the community in dealing with the 
psychological effects of community violence by ensuring that children 
receive appropriate mental health services. Building on the success of 
the Yale-New Haven project, the Department, in an initiative called 
Safe Start, is providing financial and technical assistance to 
approximately 12 additional communities to implement similar 
partnerships that reach into schools, courts, and child protection 
services.
    In December, the Department took the lead on the President's 
Children Exposed to Violence Initiative, which focuses public attention 
on the abuse and violence that affects the lives of too many children, 
and challenges Federal, State, and local law enforcement--in 
partnership with families, communities, social service agencies, child 
protective services, mental and physical health care providers, 
schools, courts, the private sector, and Federal, State, and local 
government leaders--to improve prevention, intervention, and 
accountability efforts addressing children exposed to violence.
    As part of the initiative and with support from the Department, the 
Yale Child Study Center will serve as a national center on children 
exposed to violence and on law enforcement partnerships. The center 
will provide training and technical assistance, devoting special 
attention to the link between early victimization and later juvenile 
and adult criminality. This new center will serve as an important 
resource for all communities that are in need of assistance and support 
in developing programs focusing on children exposed to violence.
    Our child protection efforts also include activities to combat 
child abduction and exploitation. OJJDP has worked with the National 
Center for Missing and Exploited Children (NCMEC) since 1984 and has 
recently expanded its joint efforts to protect children from Internet 
exploitation. With support from OJJDP, NCMEC has provided training and 
technical assistance to law enforcement to address Internet crimes 
against children and is conducting a national survey on Internet 
pornography. NCMEC also operates a Cyber Tipline that collects 
information from citizens regarding computer-related sexual 
exploitation of children and forwards it to appropriate law enforcement 
agencies. In addition, OJJDP has provided assistance to 10 State and 
local law enforcement agencies through its Internet Crimes Against 
Children program to establish ``cyber units'' to investigate these 
crimes.
    prevention--programs providing positive opportunities for youth
    OJJDP also supports a number of programs that provide more positive 
opportunities for youth, such as mentoring, after-school activities, 
and conflict resolution programs. Among the goals of such programs are 
to help children develop positive life skills, give them support and 
direction, and create opportunities for community involvement and 
service, all of which are believed to provide a good defense against 
involvement in delinquent behavior.
    For example, the Juvenile Mentoring Program (called JUMP) is 
designed to provide one-to-one mentoring for youth at risk of 
delinquency, gang involvement, educational failure, or dropping out of 
school. Mentors provide youth with personal connectedness, supervision, 
and guidance; skills training; career or cultural enrichment 
opportunities; a sense of self-worth; and goals and hope for the 
future. Since 1995, OJJDP has awarded more than $39 million to support 
local mentoring efforts through JUMP and currently funds 166 JUMP sites 
in over 40 States.
    Probably the best known mentoring program in the United States is 
Big Brothers/Big Sisters of America. An extensive evaluation of this 
program by Public/Private Ventures and OJJDP's 2-year experience with 
JUMP show that mentoring programs improve school performance and reduce 
antisocial behavior, including alcohol and drug abuse. Youth involved 
in the Big Brothers/Big Sisters mentoring programs were 46 percent less 
likely to experiment with drugs, 27 percent less likely to experiment 
with alcohol, and almost 33 percent less likely to hit someone than 
youth not participating in the program. Participating youth also 
skipped school less often than youth not participating in the program 
and showed a modest grade improvement in academic performance.
    To strengthen local mentoring projects, OJJDP is establishing a 
National Mentoring Center. The center will develop and field-test a 
core curriculum for training mentoring project staff and volunteers in 
specified program areas; design and conduct a set of interrelated 
training events that help mentoring projects to improve; and develop 
and disseminate technical assistance packages, publications, and other 
resource materials and facilitate the sharing of information across 
sites.
    The National Youth Network, funded by OJJDP, provides opportunities 
for youth leadership. The Network serves as a catalyst for youth across 
the country to prevent crime and victimization and make a difference in 
their communities by collaborating among youth-focused national, State, 
and community organizations; distributing information on successful 
programs and strategies; advocating youth perspectives to policy 
makers; promoting the need for positive youth activities through the 
media; and reaching out to non-affiliated youth, especially those in 
the juvenile justice system.
    OJJDP funds after-school activities at Boys and Girls Clubs that 
provide young people with appealing alternatives to drug use, drug 
dealing, violence, and crime. Funds were also provided by OJJDP for 
Boys and Girls Clubs to expand in public housing to keep youth from 
becoming involved with gangs or to intervene with those in the early 
stages of gang involvement. Boys and Girls Clubs have reached out to 
6,000 youth at risk of gang involvement in 93 sites. The Department of 
Labor is working with us on this effort and is providing additional 
funding for workforce development activities. Portland University 
studied the program and found that 90 percent of potential gang members 
have maintained regular contact with the club, 48 percent improved 
their school behavior, more than 33 percent improved their grades, and 
as many as 33 percent improved their school attendance. According to a 
Columbia University outcome study, the OJJDP supported Boys and Girls 
Clubs in public housing programs reduced the juvenile crime rate by 13 
percent, increased rates of school attendance, and improved academic 
performance.
    OJJDP is also working with the Department of Labor (DOL) to 
increase job training and employment opportunities for high-risk youth. 
Specifically, we have been actively engaged in the development and 
implementation of the Concentrated Services for Youth Offenders 
Demonstration program (which Senator Specter supported and we will be 
evaluating for DOL), providing technical assistance for the Youth 
Opportunity Grants program, and evaluating the Quantum Opportunities 
program and the TEEN Supreme life skills program. We soon expect to 
finalize an agreement with DOL to build on our current efforts to 
create a comprehensive strategy to serve youth who are at risk or who 
have been under the supervision of the criminal justice system.
    In the area of drug abuse prevention, one of the most promising 
approaches we have observed is the Life Skills Training (LST) program 
developed by Dr. Gilbert Botvin at the Institute for Prevention 
Research at Cornell University Medical College. The LST program targets 
the psycho-social factors associated with the onset of drug 
involvement, providing general life skills training and social 
resistance skills training to junior high school students.
    One promising approach for reducing conflict and violence in the 
schools is bullying prevention. For example, a program to reduce 
bullying among school children was launched in Norway in the early 
1980's. This program involves interventions at multiple levels (e.g., 
school-wide, classroom, and individual) designed to establish norms 
within the school environment that support pro-social and inclusive 
behavior among children and that discourage bullying and other 
antisocial behavior. Reductions in bullying, victimization, and 
antisocial behavior were observed as a result of a bullying prevention 
program implemented in Norwegian schools. Specifically, there were 
strong reductions in self-reports of vandalism, fighting, theft, 
alcohol use, and truancy.
    Until recently, there have been few attempts to establish 
antibullying initiative in American schools. The South Carolina 
Bullying Prevention study, funded by OJJDP, evaluated a bullying 
prevention program implemented in the State's middle schools. 
Preliminary findings indicate that the program reduced self-reported 
delinquency after 1 year.
    Conflict resolution training has also proven to be effective in 
resolving the schoolyard problems of bullying, teasing, and fighting. 
However, in addition to improving children's behavior in the classroom, 
the culture of the school must be changed. OJJDP and the Safe and Drug-
Free Schools Program of the U.S. Department of Education have recently 
tripled their commitment to increase the number of conflict resolution 
programs available through schools, juvenile facilities, and community-
based organizations. To support this work, OJJDP provides funding to 
the National Center for Conflict Resolution Education. The Center's 
mission is to build partnerships with national, State, and local 
organizations to develop conflict resolution programs, including those 
in school districts and local communities.
    School violence, truancy, drugs, and gangs are problems confronting 
many communities. To address these issues, OJJDP funded the development 
of the Hamilton Fish National Institute on School and Community 
Violence at George Washington University to test the effectiveness of 
violence prevention methods and to develop more effective strategies. A 
consortium of seven universities work directly with local school 
systems to implement and test school-wide interventions that promote 
safety by reducing fighting and bullying, truancy, and drug use and by 
enhancing positive student interaction. The Institute is identifying 
programs that can be replicated to reduce violence in America's schools 
and their immediate communities.
    The work of Hamilton Fish in school violence is complemented by the 
activities of the National Resource Center for Safe Schools. This 
center, funded jointly by the Safe and Drug-Free Schools Program and 
OJJDP, provides training and technical assistance to help schools and 
communities to create safe school environments.
                              intervention
    Prevention programs and positive opportunities for at-risk youth 
represent just one part of the Comprehensive Strategy. It is also 
critically important that the juvenile justice system hold youth 
accountable for their behavior while, at the same time, providing 
appropriate rehabilitation services for youth who can benefit from 
them--services involving both social control and treatment. The system 
must have the capacity to appropriately assess a child's needs when 
they first enter or become known to the system. Delinquents who come 
into the juvenile justice system have often had previous contact with 
the system, for example as victims of child abuse or runaways. It is 
important to assess the needs of children and provide appropriate 
interventions as early as possible.
    OJJDP is encouraging the type intervention activities that are 
necessary through a new Community Assessment Center (CAC) project. 
CAC's, which ideally will provide a 24-hour centralized point of intake 
and assessment, are designed to improve the assessment of children on a 
variety of needs the first time they come into contact with the 
juvenile justice system--as dependents, status offenders, or 
delinquents. Juvenile justice and community-based youth service 
providers co-locate at the CAC to make both basic and in-depth 
assessments of the juvenile's circumstances and treatment needs, 
arrange for detention or release to a safe and appropriate setting, 
develop recommendations, facilitate access to services, and manage or 
monitor appropriate treatment services.
    Once the justice system has completed an assessment, it must have 
in place a range of programs to successfully deal with the issues that 
have been identified. This requires implementing programs that have 
proven to be effective. Two examples of effective programs that we are 
supporting include the Multisystemic Therapy program and Treatment 
Foster Care.
    Multisystemic Therapy (MST) is a non-residential delinquency 
treatment/family strengthening program developed by Dr. Scott Henggeler 
of the Medical University of South Carolina. This program views 
individuals as being ``nested'' within a complex of interconnected 
systems, including the family, community, school, and peers. MST 
targets problems in any of these systems for change and builds the 
capacity of the family and individual to work within these systems to 
effect that change. Several evaluations of the programs have 
demonstrated that juveniles receiving MST have substantially lower 
recidivism rates than those receiving traditional services.
    Treatment Foster Care (TFC) was developed by the Oregon Social 
Learning Center in 1983 as an alternative to residential and group care 
placement for serious and chronic juvenile offenders. Four studies have 
been conducted on the effectiveness of the TFC approach and overall, 
the results showed that, compared with alternative residential 
treatment models, TFC was cost effective and led to better outcomes for 
children and families.
    Although the prevalence of mental health and substance abuse 
disorders among youth in the juvenile justice system is largely 
unknown, recent research suggests that these problems are significantly 
greater for juvenile delinquents than for other youth. To effectively 
rehabilitate juveniles, there needs to be an increase in the number and 
quality of treatment programs in the community and in juvenile 
institutions. OJJDP is currently working with other Federal agencies to 
provide increased levels of funding for mental health and substance 
abuse treatment programs both in the community and in juvenile 
institutions. For example, OJJDP is contributing to a multi-year 
National Institute of Mental Health study on substance abuse, 
antisocial behavior, and the long-term efficacy of medication and 
behavioral and educational treatment for children with attention 
deficit/hyperactivity disorder. OJJDP funds will permit the study to 
focus on delinquent behavior and juvenile justice system interaction. 
OJJDP is also contributing to the National Institute of Corrections' 
training and technical assistance initiative with the GAINS Center. The 
Center helps court and juvenile justice leaders improve treatment and 
services for juvenile offenders with co-occurring disorders.
    A strong system of intervention also requires effective 
partnerships between courts, services, and law enforcement. OJJDP is 
funding and evaluating the demonstration of this approach in three 
communities: Oakland, California; Baton Rouge, Louisiana; and Syracuse, 
New York. These communities are forming partnerships among community 
residents, faith organizations, law enforcement agencies, the media, 
schools, and families to reduce juvenile gun violence --focusing on 
strategies related to the access, possession, and use of guns by 
juveniles as three critical aspects to the problem.
    Juvenile gang violence poses the same challenges and requires the 
same comprehensive approach as gun violence. There is general 
recognition among gang experts that the most effective strategies to 
deter gang involvement are likely to be comprehensive, multi-pronged 
approaches that incorporate prevention, intervention, and suppression 
activities while encouraging collaboration among various community 
agencies. The Comprehensive Community-Wide Approach to Gang Prevention, 
Intervention, and Suppression Program is an OJJDP demonstration 
initiative that is currently being implemented in five jurisdictions. 
This is a multi-year effort to implement and test a comprehensive model 
developed by Dr. Irving Spergel at the University of Chicago. The 
strategies in this model consist of a combination of community 
mobilization, social intervention and outreach, provision of social and 
economic opportunities for youth, suppression, and organizational 
change and development. The demonstrations are currently being 
evaluated.
    OJJDP is committed to the support of all States that are focusing 
on the needs of at-risk girls and young females in the juvenile justice 
system. The Office recently published Guiding Principles for Promising 
Female Programming: An Inventory of Best Practices which highlights 
exemplary and effective gender-specific program practices that State 
and local jurisdictions can use immediately. Gender-specific programs 
encourage healthy attitudes, behaviors, and lifestyles, and promote 
social competence in girls. Elements which have proven vital to the 
development of promising gender- specific programming include: 
relationship building, responding to victimization, non-traditional 
vocational training, staff training, life skills development, parental 
skills training, and prenatal-postpartum care.
                  coordination and information sharing
    The impact of all of these activities--from research and evaluation 
to effective prevention and intervention programming--is enhanced by 
our concerted commitment to sharing information with the people who 
need it most. To that end, OJJDP funds a National Training and 
Technical Assistance center which coordinates our various training and 
technical assistance resources. We also support the Juvenile Justice 
Clearinghouse (the Clearinghouse), a component of the National Criminal 
Justice Reference Service (NCJRS). NCJRS is one of the most extensive 
sources of information on criminal and juvenile justice in the world, 
providing services to an international community of policymakers and 
professionals. In 1998, the Clearinghouse distributed over 3.5 million 
copies of OJJDP's publications, a 45 percent increase from 1997; 
received over 44,000 requests for information, a 14 percent increase 
from 1997; and provided support to 136 national and local conferences. 
The OJJDP website was visited over 90,000 times in 1998. In addition, 
we sponsored six national satellite conferences, broadcasting to an 
average of over 450 viewing sites and over 13,000 people. Topics 
included serious and violent juvenile offenders, school safety, youth 
courts, and Internet crimes against children.
    OJJDP is also supporting public education through the ``Investing 
in Youth for a Safer Future'' media campaign. This partnership with the 
National Crime Prevention Council and the Ad Council is broadcasting 
through radio, print, and billboards public service advertisements on 
proven actions and programs that prevent and reduce crime by and 
against youth and tested interventions that help young people turn 
their lives around when they have gotten into trouble. We have also 
joined with the Department of Education and MTV to reach out to young 
people through MTV's Fight for Your Rights: Take a Stand Against 
Violence initiative. Through this initiative, the Department of Justice 
is distributing: an interactive CD-ROM that walks viewers through a 
number of videotaped real-life situations and gives them the skills 
they need to resolve conflicts peacefully; and an Action Guide that 
provides young people with ways to reduce violence in their 
communities.
                       youth violence initiative
    I have described to you our comprehensive approach and just a few 
of our current activities designed to prevent juvenile crime and 
violence, improve the juvenile justice system, and address juvenile 
victimization. It is obvious that I am proud of this Department's 
accomplishments in juvenile justice. And, I believe that the positive 
trend we have observed in recent juvenile arrest rates is due, at least 
in part, to the balanced approach we have adopted in juvenile justice--
one that combines prevention programs for at-risk youth with early 
intervention and sanctions that hold offenders accountable at every 
stage of the juvenile justice system. As a result of this approach, we 
have seen entire communities coming together--law enforcement, schools, 
businesses, youth services, and the faith community--to protect our 
children and steer them away from crime and drug abuse.
    I am, therefore, pleased to appear before you today to discuss how 
the Department of Justice can work with you as you deliberate the next 
steps of a youth violence prevention initiative. I am in agreement with 
your analysis that youth violence has become a public health problem 
that requires a coordinated interagency approach to combat it. 
Continuing to pool the talents and resources of Justice with those of 
the Departments of Labor, Health and Human Services, and Education, and 
other interested parties will permit us to expand our endeavors to more 
communities and, ultimately, to help more juveniles at-risk of 
delinquency and victimization. For those youth who have already entered 
the system, we can provide more effective treatment and interventions 
to turn their lives around.
    But, the key to achieving success is coordination. Only through 
coordination at the Federal level can we make the most efficient use of 
our increasingly limited resources. And you may be sure that we are 
working with other agencies and the White House to determine the most 
effective way to achieve this coordination. That is why it is critical 
that the programs you propose complement, support, and coordinate with 
those programs already in place and build on what the research tells us 
works. In general, I think we are in agreement on this, based on the 
outline of your youth violence initiative. It is, however, very 
difficult for us to respond to your proposals without knowing the 
overall level and content of the Subcommittee's Labor/Health and Human 
Services/Education appropriations bill. We need to work together to 
ensure that all the bill's priority programs are sufficiently funded.
    I appreciate your commitment to this issue, and look forward to a 
strengthened and renewed partnership between the Federal agencies that 
share the mission of improving the lives of this Nation's youth by 
eliminating juvenile violence and delinquency. Let us work together to 
build on what we have accomplished so far and to expand the 
possibilities about what we can achieve in the future. Let's do it for 
the children, and reap the rewards of a better society for all. I would 
be pleased now to respond to any questions you may have.

               creation of the office of attorney general

    Senator Specter. I have had a determination made as to the 
Department of Justice, and this I think is worth a footnote. 
The Office of Attorney General was created on September 24, 
1789. That is 2 years after the Constitution was signed, and 
then of course it was ratified. But the Department of Justice 
was not established until June 22, 1870. So that goes to show 
you the efficiency of having a one-person office for almost a 
century. [Laughter.]
    A vote has been scheduled, but I am going to proceed here 
for another 10 minutes or so, to move along as far as we can. 
The central problem at our task force, or meetings, involved 
the question of where we should have coordination of this 
program. Turf is always an issue in Washington, notwithstanding 
the cooperative nature of our Secretaries and Departments here 
today.
    I have talked with Mr. Bruce Reed, the Chief of Domestic 
Policy for the President, and it is going to be coordinated out 
of the White House. But there is going to be a need for the 
day-to-day coordination. Our best judgment has been, as you 
know, to put it under the Surgeon General.
    The question I have for you, Secretary Shalala, is what 
personnel are now available within the Surgeon General's unit, 
which has never been an expansive administrative unit? What are 
your plans for expanding it, beefing it up? What kind of 
funding do you need? We are prepared to work with you to make 
that office the cornerstone because of the consideration of 
this being a national health problem. Where do you plan to take 
it, by way of personnel and organization?
    Secretary Shalala. Well, Senator, as you know from your 
conversation with Mr. Reed, we are working on ways to, as 
agencies, develop a new policy coordinating mechanism. I think 
we are actually talking about the development of a Youth 
Violence Council. But you point out that the management of the 
programs will be the responsibility of the agencies. The 
Department will manage its programs, working with the other 
agencies, through the Surgeon General's office.
    As you rightly point out, the Office of the Surgeon 
General, even though it is combined with the Office of the 
Assistant Secretary for Health, has limited resources. But it 
is our plan, as both part of the proposal as well as in terms 
of our internal organization, to beef up the Surgeon General's 
office to play what appropriate management role it's designated 
to play.
    Senator Specter. Do you anticipate a council to be 
established out of the White House to coordinate all this?
    Secretary Shalala. Yes. We are working on that. We would 
deeply appreciate your advice on that and your participation as 
we develop it. It is not finally done, as Mr. Reed indicated to 
you. We are working on the development of a coordination 
council out of the White House, which is not unusual in terms 
of how we coordinate across departments.
    That would not substitute, though, for the ongoing 
management of the programs themselves by the appropriate 
departments or management coordination across the departments.
    Senator Specter. Well, we just finished the work of a 
Commission on Weapons of Mass Destruction, where we found 96 
separate agencies touching that very vital role. And after a 
lot of study and after talking to a lot of secretaries and ex-
secretaries and administration people, we came to the 
conclusion that we needed a central person. And it would be my 
hope that that individual would be identified. And if you have 
a better candidate than the Surgeon General, I am open. 
Legislatively, this subcommittee is open to the idea.
    But from all we have seen and the history of the 
identification as a health problem, and, really, to take it 
away from an enforcement and going after the incorrigibles, we 
think the Surgeon General is a good person to head it. We took 
a look at his unit, and it is not equipped. You have some very 
good people in there, but there are very few. So we want to 
work with you as you move across on that.

                         youth violence council

    On a related issue, we had an extraordinary group which met 
on our three working sessions. Mr. Holder, I would like you to 
make a comment, because you were there. We had, at one or more 
of the meetings, the Surgeon General, the head of the National 
Institute of Mental Health, the Director of the Office of 
Juvenile Justice and Delinquency Prevention, the Assistant 
Secretary for Elementary and Secondary Education, the 
President-elect of the National Association of School 
Psychologists, the Centers for Disease Control, a division of 
Violence Prevention, and about three times that number, really 
a very interesting collection of practical technicians sitting 
down.
    The comment was expressed, and I say this in a very 
constructive way, that they had not seen each other, to talk 
across departmental lines. It is certainly a truism that 
everybody in this town is so busy, it is very hard to get the 
kind of interpollination.
    Mr. Holder, I would be interested in your evaluation, for 
the record, of the utility of pulling together that kind of a 
cross-sectional group and, since you were there, your thinking 
as to how we might promote that, keep it going.
    Mr. Holder. Well, I certainly think the group that you 
convened, you had the right players there. I think that is the 
way in which we are going to get a handle on this problem--to 
think of it in a way that we have not in the past, to think of 
it as a health issue, a public health issue, to address it that 
way, to use the kinds of techniques that have been used 
successfully in dealing with other public health issues.
    I think the proposal of the Youth Violence Council is a 
good one. Coordination really is the key here, to get people 
together in the way that you did, so that you have people who, 
through the course of a day and the press of business, do not 
have a chance to meet, to get together, and to come up with 
coordinated strategies.
    Ultimately, I think whatever we put together, the question 
is going to be one of leadership and making sure that there is, 
either in a council or an individual, a leadership 
responsibility to bring those people together on a consistent 
basis, to make sure that all of our efforts are coordinated, 
that we are all looking for the same kinds of things, to make 
sure that there are not turf fights, which inevitably tend to 
crop up.
    I think the possibility exists that we can make some 
meaningful progress here if we will keep our eyes on the prize. 
I think the Youth Violence Council, from my perspective, is a 
very promising idea.
    Senator Specter. Well, I would like to see you take a look 
at that model, to keep it going, as we start to move through 
it. We have only scratched the surface as best we could do it 
in a relatively short period of time. We would urge that all 
the departments take a look beyond what we have identified 
here, as to what touches on youth violence. Again, you have a 
lot of important projects and a lot of important things to do. 
But I think there is a consensus in America about this being a 
priority, as to how more efforts can be targeted at this issue.
    The idea of bringing in young people, I think, is a very 
good idea. I think that ought to be structured in.
    Let me ask, Secretary Herman, what your thinking would be 
as to how we could bring the young people into these 
activities. Your Department probably touches more of them in 
the regular course of activities, through the Job Corps and 
through the job training programs. Although, Secretary Riley, 
they are all subject to education. But what suggestion would 
you have on how to bring these young people in, so that we have 
the benefit of their inputs, and also they have the feeling of 
being parties?
    Secretary Herman. I think we should do it on at least two 
levels, Senator. First, formally, I think we can do more to 
organize what we are calling youth councils at the local level. 
So that as we execute programs and strategies, that we create a 
place for young people as a part of that process, so that they 
can be formally in the dialog. I think that all of our systems 
need to be cognizant of that and reach out to bring young 
people in--the young people that we met and talked with. Those 
are the kinds of individuals who have been through the 
programs. We need to have the continuity of networks, so that 
we do not lose track of them, so that we can bring them back to 
the table.
    But, second, I think that as a part of engaging the whole 
community, that we need other avenues where young people are 
today, be it faith-based communities, in the churches, in the 
neighborhood centers, through the school systems, engaging more 
athletes, celebrities, as we are trying to do through the YO! 
Movement. Those individuals who have the ears of our young 
people today also need to be brought into this process.
    Senator Specter. I will come back to you in a minute, 
Secretary Shalala.
    Secretary Riley, your idea for at least one caring adult is 
a bull's eye. We talk a lot about mentoring. There are a lot of 
agencies out there, Take a Brother, Big Brother, et cetera. You 
may want to supplement this with some additional reflection. 
But how can we target--no better place than through the 
schools--to identify a named adult? If a child has a parents or 
a parent or a grandparent, it is not too hard. But so many, 
especially in the inner city, do not--or, really, across 
America--do not.
    How can we structure a program to identify a national 
registry, to make sure every student has a caring adult?
    Secretary Riley. Well, I think the question certainly 
points out the complication of it. I really think it has to be 
done more or less on a community basis. You cannot make it so 
big that it does not reach people.
    The parent information resource centers, which you 
recognize in your proposal--and we have those in all the 
States--information for parents as to what they can obtain in 
terms of resources or connections with them I think is very 
helpful, contacting the community based organizations. It is 
amazing--if this concept really caught on in a community--and 
some communities are really involved in it in different ways--
it is amazing how many people would really welcome the 
opportunity to connect up with a child.
    I have a son who is a lawyer in Columbia. He has a mentee. 
He has had him for 3 years. It is a very close relationship. 
The kid has a single-parent family. They have a wonderful 
relationship. And they discuss problems and the future and 
college.
    If there are ways that we can develop that, community by 
community, I think that is a wonderful goal for us all to seek.
    Senator Specter. Thank you, Secretary Riley.
    I have to be on the floor in 6\1/2\ minutes, when the vote 
is going to close. I have made an executive decision--unusual 
for a legislator--not to keep you here during the interim, 
because it takes a bit of time, and I do not want to deprive 
four Departments of their heads. We have really covered 90 
percent. There are a lot of other questions I would like to 
ask. We will be talking more on an informal basis.
    You had wanted to make a comment, Madam Secretary Shalala. 
I want to ask you a question, which you integrate into your 
comment. That is, the program does not really focus as much on 
adolescents. We have birth to 3 and 5. I would be interested in 
your response on adolescents and how we might beef up the 
program more.
    Another facet is I like the study that the Surgeon General 
is going to do. I have talked to Mr. Valenti, for example, on 
TV and movies. I have gone through the guidelines they have. It 
is really a complex matter to try to make any modifications 
within the first amendment. We have studiously avoided blaming 
them. But we would like to know what the facts are.
    I want to see the methodology which works with the 
industry, so that we do not come back after a long expensive 
study and say, well, the methodology is not right. Whatever is 
done is going to have to be done collegially and coordinately. 
Would you address those questions and also the comment that you 
had wanted to make, Madam Secretary?
    Secretary Shalala. I agree with that, Mr. Chairman, that we 
need to do that collegially. There are a number of media 
studies going on. As you know, there is limited research in 
this area, but there is some consensus on the effects of the 
media on desensitizing young people and what effects it has on 
children who are the most at risk.
    I do want to make a point about adolescents. That was also 
related to my point about young people that I wanted to 
reinforce. I think it is time that we wrote young people into 
the legislation, and said to all of us that we really have to 
consult with young people. During the summer, I talked with two 
or three intern groups a week. It drives my scheduler crazy. 
But I learned more from them as they come in and ask me 
questions than I do often from others. They are not represented 
by interest groups who get themselves written into 
consultations. But we ought to be talking to them. They ought 
to feel like they are part of the solution.
    As for adolescents, we have spent much of the last decade 
focused on younger kids, because that is where our research 
led. Yet the Carnegie Report tells us very clearly that when we 
stopped using baby sitters for young people, we hand them over 
to their larger peer group. We need to work with adolescents 
and we need separate strategies and different kinds of 
strategies, though all of this has to be seamless.
    So I think focusing on adolescents, not giving up on them, 
that there are some things to do. This positive youth 
development strategy that the public health people and the 
wider community are increasingly talking about is a much more 
sophisticated way to go with young people. I would be pleased 
to have further conversations with you and work of course with 
my colleagues as we have been doing.
    Senator Specter. Well, thank you all very much. I think 
this has been a very productive session. I would like to 
continue the dialog, but I do not want to keep you waiting. 
Because sometimes these votes are just longer than you expect. 
And when you get there, somebody has to talk to you, including 
the Majority Leader, et cetera, et cetera. So we will conserve 
your time and we will follow up on an informal basis.

                         conclusion of hearing

    Thank you all very much for being here, that concludes our 
hearing. The subcommittee will stand in recess subject to the 
call of the Chair.
    [Whereupon, at 10:55 a.m., Tuesday, September 14, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                  <all>

</pre></body></html>
